<html>
<title> - H.R. 6080, TO ESTABLISH THE ``MINERAL COMMODITY INFORMATION AGENCY (MCIA)'' WITHIN THE DEPARTMENT OF THE INTERIOR</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
  H.R. 6080, TO ESTABLISH THE ``MINERAL COMMODITY INFORMATION AGENCY 
            (MCIA)'' WITHIN THE DEPARTMENT OF THE INTERIOR

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                       SUBCOMMITTEE ON ENERGY AND
                           MINERAL RESOURCES

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                     Wednesday, September 20, 2006

                               __________

                           Serial No. 109-62

                               __________

           Printed for the use of the Committee on Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov




                    U.S. GOVERNMENT PRINTING OFFICE

30-099 PDF                  WASHINGTON : 2006
------------------------------------------------------------------
For sale by Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800;
DC area (202) 512-1800 Fax:  (202) 512-2250. Mail:  Stop SSOP, 
Washington, DC 20402-0001


                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Eni F.H. Faleomavaega, American 
Elton Gallegly, California               Samoa
John J. Duncan, Jr., Tennessee       Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Barbara Cubin, Wyoming               Donna M. Christensen, Virgin 
  Vice Chair                             Islands
George P. Radanovich, California     Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Grace F. Napolitano, California
    Carolina                         Tom Udall, New Mexico
Chris Cannon, Utah                   Raul M. Grijalva, Arizona
John E. Peterson, Pennsylvania       Madeleine Z. Bordallo, Guam
Jim Gibbons, Nevada                  Jim Costa, California
Greg Walden, Oregon                  Charlie Melancon, Louisiana
Thomas G. Tancredo, Colorado         Dan Boren, Oklahoma
J.D. Hayworth, Arizona               George Miller, California
Jeff Flake, Arizona                  Edward J. Markey, Massachusetts
Rick Renzi, Arizona                  Peter A. DeFazio, Oregon
Stevan Pearce, New Mexico            Jay Inslee, Washington
Henry Brown, Jr., South Carolina     Mark Udall, Colorado
Thelma Drake, Virginia               Dennis Cardoza, California
Luis G. Fortuno, Puerto Rico         Stephanie Herseth, South Dakota
Cathy McMorris, Washington
Bobby Jindal, Louisiana
Louie Gohmert, Texas
Marilyn N. Musgrave, Colorado
Vacancy

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

              SUBCOMMITTEE ON ENERGY AND MINERAL RESOURCES

                     JIM GIBBONS, Nevada, Chairman
           RAUL M. GRIJALVA, Arizona, Ranking Democrat Member

Don Young, Alaska                    Eni F.H. Faleomavaega, American 
Barbara Cubin, Wyoming                   Samoa
Chris Cannon, Utah                   Solomon P. Ortiz, Texas
John E. Peterson, Pennsylvania       Jim Costa, California
Stevan Pearce, New Mexico            Charlie Melancon, Louisiana
Thelma Drake, Virginia               Dan Boren, Oklahoma
  Vice Chair                         Edward J. Markey, Massachusetts
Bobby Jindal, Louisiana              Nick J. Rahall II, West Virginia, 
Louie Gohmert, Texas                     ex officio
Richard W. Pombo, California, ex 
    officio
                                 ------                                
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Wednesday, September 20, 2006....................     1

Statement of Members:
    Cubin, Hon. Barbara, a Representative in Congress from the 
      State of Wyoming, Statement submitted for the record.......     7
    Drake, Hon. Thelma, a Representative in Congress from the 
      State of Virginia..........................................     5
        Prepared statement of....................................     6
    Gibbons, Hon. Jim, a Representative in Congress from the 
      State of Nevada............................................     1
        Prepared statement of....................................     3
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     4
        Prepared statement of....................................     4

Statement of Witnesses:
    Brown, David S., President, Wyo-Ben, Inc., and Vice Chairman, 
      Bentonite Section, Industrial Minerals Association--North 
      America....................................................    16
        Prepared statement of....................................    17
    Copulos, Milton R., President, National Defense Council 
      Foundation.................................................    35
        Prepared statement of....................................    36
    Holmes, Constance D., Senior Economist and Director of 
      International Policy, National Mining Association..........    19
        Prepared statement of....................................    21
    Kaas, L. Michael, Mining Engineer, Retired, Arlington, 
      Virginia...................................................    29
        Prepared statement of....................................    30
    Kanagy, David L., Executive Director, Society for Mining, 
      Metallurgy, and Exploration, Inc...........................    32
        Prepared statement of....................................    34
    Meyer, Drew A., Vice President, Marketing and Transportation 
      Services, Vulcan Materials Company, on behalf of The 
      National Stone, Sand & Gravel Association..................     8
        Prepared statement of....................................     9

Additional materials supplied:
    American Concrete Pavement Association, American Concrete 
      Pipe Association, Michigan Concrete Paving Association, 
      National Concrete Masonry Association, National Ready Mixed 
      Concrete Association, and Portland Cement Association, 
      Letter submitted for the record............................    41
    Billingsley, Lee T., President, American Association of 
      Petroleum Geologists, Letter submitted for the record......    42
    Ellis, Mark G., President, Industrial Minerals Association--
      North America, Letter submitted for the record.............    43
    Morgan, John D., EM, Ph.D., Statement submitted for the 
      record.....................................................    45
    Naasz, Kraig R., President & CEO, National Mining 
      Association, Letter submitted for the record...............    46
    Skaer, Laura, Executive Director, Northwest Mining 
      Association, Letter submitted for the record...............    47
    Stewart, Shelley, Jr., Senior Vice President, Opertional 
      Excellence and Chief Procurement Officer, Tyco 
      International (US) Inc., Letter submitted for the record...    48
    Wilson, Jennifer Joy, President & CEO, National Stone, Sand & 
      Gravel Association, Letter submitted for the record........    49


H.R. 6080, TO ESTABLISH THE MINERAL COMMODITY INFORMATION AGENCY (MCIA) 
     WITHIN THE DEPARTMENT OF THE INTERIOR, AND FOR OTHER PURPOSES.

                              ----------                              


                     Wednesday, September 20, 2006

                     U.S. House of Representatives

              Subcommittee on Energy and Mineral Resources

                         Committee on Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 2:02 p.m. in 
Room 1324, Longworth House Office Building, Hon. Jim Gibbons 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Gibbons, Drake, Grijalva.

STATEMENT OF THE HON. JIM GIBBONS, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF NEVADA

    Mr. Gibbons. Good afternoon. The legislative hearing by the 
Subcommittee on Energy and Mineral Resources will come to 
order. The Subcommittee is meeting today to hear testimony on 
H.R. 6080, a bill to establish the Mineral Commodity 
Information Agency, and that would be within the Department of 
Interior, and for other purposes today as well.
    As I said, today the Subcommittee is going to hear 
testimony on H.R. 6080, introduced by our good friend and 
colleague, Mrs. Drake. This bill will establish the Mineral 
Commodity Information Administration within the Department of 
Interior using the existing Department personnel and resources.
    For more than 100 years, the United States has been 
collecting information on mineral commodity statistics. In the 
last years of the 19th and the first quarter of the 20th 
century, this task was performed by the U.S. Geological Survey. 
In 1925, this task was transferred to the Bureau of Mines, 
where it resided for 70 years.
    In that time, the Bureau of Mines prepared annual mineral 
commodity reports on just about every mineral of economic 
importance, and the Bureau of Mines became the trusted source 
of mineral commodity information used by government agencies, 
industry, and academia.
    In 1995, the Bureau of Mines was eliminated, and the 
mineral commodity information function was transferred back to 
the USGS, as we here in Congress place great importance on 
continued reporting of mineral commodity information. In 2002, 
the President's Fiscal Year 2003 budget proposed to eliminate 
the collection of international mineral commodity information 
by the USGS. The appropriators wisely rejected the proposal and 
restored funding to the program.
    The attempts to eliminate international minerals commodity 
information collection have continued with each subsequent 
budget proposal, and each subsequent proposal damaged the 
morale of those charged with reporting the minerals commodity 
information to the public. Indeed, these budgetary assaults are 
likely to continue unless we at the authorizing committee take 
action.
    Significantly, these budgetary assaults have continued 
throughout the commodities bull market, which started in 2002 
and marked the first time prices increased in mineral 
commodities in a generation. The bull market in commodities has 
been driven by the surging consumption and economies of India 
and China. The ``Free World'' versus ``Evil Empire'' dichotomy 
of mineral and energy availability has been replaced by a 
rough-and-tumble marketplace for mineral commodities.
    The United States now finds itself competing for access to 
mineral commodities with state-owned or state-financed 
companies. In contrast to our competitors, the U.S. mineral 
policy has been to rely on private investment, domestic and 
international commercial decisions on investment and trading 
activities, and access to a set of international mineral 
commodity markets to ensure that the needed mineral commodities 
are supplied to the United States' economy.
    This strategy only works because it is supported with 
sound, publicly available data on mineral commodities that take 
into account all aspects of the international commodity 
markets. The Administration's repeated attempts to eliminate 
the collection of international mineral commodity data are at 
best unwise and at worst potentially harmful to the nation's 
economic security and national security.
    The competition for mineral commodities has driven the 
prices of goods up for all Americans. It could threaten the 
vital national security interest of this nation by fully 
depriving us of foreign sources of supply and, in some cases, 
the denial of access to mineral resources needed for our 
communities could result in a decision to commit U.S. forces to 
maintain that access.
    In this circumstance, commodity knowledge is both power and 
security. With H.R. 6080, we will put into place the policies 
that reflect the often repeated but sadly ignored views of the 
Congress in this matter. In short, H.R. 6080 would help the 
nation's mining industry, the manufacturing industry, and the 
U.S. consumers. It will ensure that they continue to have 
access to information that they need to make good decisions 
about the basic minerals that help to enhance our way of life.
    Making sound decisions about the basic commodities that go 
into our daily lives will help to preserve the jobs of the 
hardworking men and women of the Nation in an era of 
competition for resources. I want to thank Mrs. Drake for 
introducing this legislation to create a stable source of 
mineral commodity information for all our citizens.
    I also welcome our witnesses here today as well as our 
Subcommittee members to this important Subcommittee hearing. I 
will turn now to Mr. Grijalva for his opening statements, and 
then I will allow Ms. Drake, who is the author of this bill, to 
have time for her remarks as well. Mr. Grijalva.
    [The prepared statement of Mr. Gibbons follows:]

           Statement of The Honorable Jim Gibbons, Chairman, 
              Subcommittee on Energy and Mineral Resources

    Today, the Subcommittee on Energy and Mineral Resources will hear 
testimony about H.R. 6080, introduced by Mrs. Drake. This bill will 
establish the Mineral Commodity Information Administration within the 
Department of the Interior using the existing Departmental personnel 
resources.
    For more than 100 years, the United States has been collecting 
information on mineral commodity statistics. In the last years of the 
19th and the first quarter of the 20th centuries, this task was 
performed by the U.S. Geological Survey. In 1925, this task was 
transferred to the Bureau of Mines, where it resided for the next 70 
years. In that time, the Bureau of Mines prepared annual mineral 
commodity reports on just about every mineral of economic importance. 
The Bureau of Mines became the trusted source of mineral commodity 
information used by government agencies, industry and academia. In 
1995, the Bureau of Mines was eliminated and the mineral commodity 
information function was transferred to the USGS as we here in the 
Congress placed great importance on the continued reporting of mineral 
commodity information.
    In 2002, the President's Fiscal Year 2003 budget proposed to 
eliminate the collection of international mineral commodity information 
by the USGS. The appropriators wisely rejected the proposal and 
restored funding to the program. The attempts to eliminate 
international mineral commodity information collection have continued 
with each subsequent budget proposal. And each subsequent proposal 
damaged the morale of those charged with reporting the mineral 
commodity information to the public. Indeed, these budgetary assaults 
are likely to continue unless we as the authorizing committee take 
action.
    Significantly, these budgetary assaults have continued throughout 
the commodities ``bull market'' which started in 2002 and marked the 
first long-term price increases in mineral commodities in a generation. 
The bull market in commodities has been driven by the surging economies 
of India and China. The old ``Free World'' versus ``Evil Empire'' 
dichotomy of energy and minerals availability has been replaced by a 
rough-and-tumble marketplace for mineral commodities. The United States 
now finds itself competing for access to mineral commodities with 
state-owned or state-financed companies.
    In contrast to our competitors, the U.S. minerals policy has been 
to rely on private investment, domestic and international commercial 
decisions on investment and trading activities, and access to a set of 
international mineral commodity markets to ensure that the needed 
mineral commodities are supplied the United States economy. This 
strategy works because it is supported with sound, publicly available 
data on mineral commodities that takes into account all aspects of the 
international commodity markets.
    The Administration's repeated attempts to eliminate the collection 
of international mineral commodity data are at best foolhardy, and at 
worst potentially harmful to the Nation's economic security and 
national security. The competition for mineral commodities has driven 
up the prices of goods to all Americans. It could threaten the vital 
national security interests of this nation by fully depriving us of 
foreign sources of supply. In some cases, the denial of access to 
mineral resources could result in a decision to commit U.S. forces to 
maintain that access. In this circumstance, commodity knowledge is both 
power and security. With H.R. 6080 we will put into place the policies 
that reflect the often repeated, but sadly ignored views of the 
Congress in this matter.
    In short, H.R. 6080 would help the Nation's mining industry, the 
manufacturing industry and consumers. It will ensure that they continue 
to have access to the information they need to make good decisions 
about the basic materials that help to enhance of our way of life. 
Making sound decisions about the basic commodities that go into our 
daily lives will help to preserve the jobs of the hard working men and 
women of the Nation in an era of competition for resources.
    I want to thank Mrs. Drake for introducing this legislation to 
create a stable source of mineral commodity information for all of our 
citizens. I also welcome our witnesses as well as our Subcommittee 
members to this Subcommittee hearing.
                                 ______
                                 

   STATEMENT OF THE HON. RAUL GRIJALVA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Mr. Grijalva. Thank you, Mr. Chairman, and I join with you 
in welcoming our panel of expert witnesses today on this 
legislative hearing on H.R. 6080. In effect, H.R. 6080 would 
reestablish the United States Bureau of Mines within the 
Department of Interior. It is ironic that as we approach the 
end of the 109th Congress with a 2006 midterm election only 
weeks away, we are hearing testimony on a new bill introduced 
only last week that would actually undo one of the 
accomplishments of the Republican 1994 Contract with America.
    That GOP manifesto threatened to terminate hundreds of 
Federal programs in the name of smaller government. Ultimately, 
only two small Federal agencies, the Interstate Commerce 
Commission and the United States Bureau of Mines, were 
dissolved as the public began to realize the real consequences 
of that contract's proposals.
    While I was not a Member of Congress at the time, our 
Ranking Member Congressman Rahall and many other Democrats 
opposed the abolishment of the Bureau of Mines, recognizing the 
public benefits this agency provided. The Bureau of Mines, for 
example, conducted research to enhance the safety, health, and 
environmental impact of mining and processing of minerals and 
materials.
    The many fine professionals of the Bureau collected, 
analyzed, and disseminated information about mining and 
processing of more than 100 mineral commodities across the 
nation. In addition, it was a focal point for new and emerging 
science and technology in the minerals field. But it was the 
Republican-led House-proposed elimination of the Bureau that 
after extensive budget negotiations with the Senate, 
Presidential vetoes, the Republican proposal prevailed and the 
Bureau of Mines was eliminated.
    I would suggest that perhaps H.R. 6080 is an indication 
that our friends on the other side of the aisle have seen the 
error of their ways. I would like to make it clear that we 
believe it is appropriate for the Federal Government to address 
the nation's critical need for dependable, accurate mineral 
information and to support the development of government 
policies that will ensure mineral supplies are available to 
meet our future needs.
    But having gone through the expense and the strain of 
abolishing the Bureau a decade ago, we question the timing and 
the need for H.R. 6080 at this time. We would also strongly 
urge the Chair to secure a cost estimate for the bill before 
the full committee considers it next week. Given the fact that 
Federal spending has gone up more than 40 percent under this 
Administration, it is no wonder that no one is here present to 
give us information about that expense from the Administration. 
I look forward to the testimony today, Mr. Chairman, and yield 
back.
    [The prepared statement of Mr. Grijalva follows:]

      Statement of The Honorable Raul Grijalva, Ranking Democrat, 
              Subcommittee on Energy and Mineral Resources

    Mr. Chairman/Madame Vice-Chair, I join you in welcoming our panel 
of expert witnesses to today's legislative hearing on H.R. 6080, ``The 
Resources and Origin Commodity Knowledge Act of 2006.'' In effect, H.R. 
6080 would re-establish the United States Bureau of Mines within the 
Department of the Interior.
    It is ironic that as we approach the end of the 109th Congress, 
with the 2006 mid-term elections only weeks away, we are hearing 
testimony on a new bill introduced only last week that would actually 
undo one of the ``accomplishments'' of the Republicans' 1994 ``Contract 
With America'', the GOP's manifesto that threatened to terminate 
hundreds of federal programs in the name of smaller government. 
Ultimately, only two small federal agencies--the Interstate Commerce 
Commission and the United States Bureau of Mines--were dissolved as the 
public began to realize the true consequences of the Contract's 
sweeping proposals
    In fact, the Bureau of Mines did provide public benefits, including 
research to enhance the safety, health, and environmental impact of 
mining and processing of minerals and materials. Further, the many fine 
professionals of the Bureau collected, analyzed, and disseminated 
information about the mining and processing of more than 100 minerals 
commodities across the nation. In addition, it was a focal point for 
new and emerging science and technology in the minerals field.
    But, it was the Republican-led House that proposed elimination of 
the Bureau and after extensive budget negotiations with the Senate, and 
Presidential vetoes, the Republican proposal prevailed and the Bureau 
of Mines was eliminated. Perhaps H.R. 6080 is an indication that our 
friends on the other side of the aisle have seen the error of their 
ways.
    I would like to reiterate that we believe it is appropriate for the 
federal government to address the Nation's critical need for 
dependable, accurate mineral information and to support the development 
of government policies that will ensure mineral supplies are available 
to meet future needs. But, having gone through the expense and strain 
of abolishing the bureau a decade ago, we question the timing and need 
for H.R. 6080 at this time.
    Further, we strongly urge the Chair to secure a cost estimate for 
this bill before the full Committee considers it next week. Given the 
fact that federal spending has gone up 40% since President Bush took 
office, it is no wonder that Administration officials are not present 
to argue in support of taking on yet another government expense.
    I look forward to a spirited discussion with today's witnesses.
                                 ______
                                 
    Mr. Gibbons. Thank you, Mr. Grijalva. I will turn now to 
the author of the piece of legislation, Ms. Drake, and welcome 
her remarks.

    STATEMENT OF THE HON. THELMA DRAKE, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF VIRGINIA

    Ms. Drake. Thank you, Mr. Chairman, and thank you for 
having this legislative hearing today on H.R. 6080, as you 
said, known as the Resources Origin and Commodity Knowledge Act 
or ROCK. Great name I think by the way. This bill would make 
the Mineral Information Team with the United States Geological 
Survey, an independent agency in the Department of the Interior 
with much the same charter as the Energy Information 
Administration housed in the Department of Energy.
    The MIT collects and disseminates data on virtually every 
commercially important nonfuel mineral commodity produced 
worldwide. This is information that is critical to businesses, 
the government, and importantly the Department of Defense to 
help manage the national defense stockpile. Due to the 
importance of this data, the MIT should be an independent 
agency reporting directly to the Secretary of the Interior.
    Virtually every manufacturing sector from aviation to 
textiles relies on the unbiased, thorough, and comprehensive 
data reported by the MIT. This data is essential for effective 
use of our natural resources and for accurate forecasting. The 
information for a number of the MIT reports is derived from 
proprietary information given by our members precisely because 
the government is a trusted third party.
    The United States is the world's largest user of mineral 
commodities, with processed materials of mineral origin 
accounting for over $487 billion in the economy in 2005. This 
is an increase of 8 percent in 2004 on top of an increase of 
over 13 percent in 2003.
    Mr. Chairman, you have already mentioned the need because 
of the budgetary assaults, but our nation is facing a global 
resources future where we are more dependent than ever on 
foreign sources of energy and minerals while at the same time 
we are no longer guaranteed to be the major recipient of energy 
and minerals from our traditional foreign suppliers.
    Businesses operate in a global economy. In 2005, imported 
raw and processed mineral materials increased in value by more 
than 14 percent to $103 billion. This is why the comprehensive 
data provided by MIT becomes even more important. An 
independent agency is the goal that this bill will accomplish.
    The mission of the newly created Mineral Commodity 
Information Administration will continue to collect, analyze, 
and disseminate information on the domestic and international 
supply of and demand for minerals and mineral materials 
essential to the U.S. economy and our national security. So 
thank you, Mr. Chairman, for holding this hearing on what I 
think is a very important piece of legislation, and I look 
forward to the testimony of our witnesses.
    [The prepared statement of Ms. Drake follows:]

 Statement of The Honorable Thelma Drake, a Representative in Congress 
                       from the State of Virginia

    Good afternoon, Mr. Chairman. Thank you for having this legislative 
hearing today on H.R. 6080, the Resources Origin and Commodity 
Knowledge Act.
    This bill would make the Mineral Information Team (MIT) with the 
United States Geological Survey, an independent agency in the 
Department of the Interior, with much the same charter as the Energy 
Information Administration housed in the Department of Energy.
    The MIT collects and disseminates data on virtually every 
commercially important non-fuel mineral commodity produced worldwide. 
This is information that is critical to businesses, the government, and 
importantly, the Department of Defense to help manage the National 
Defense Stockpile. Due to the importance of this data, the MIT should 
be an independent agency reporting directly to the Secretary of the 
Interior.
    Virtually every manufacturing sector, from aviation to textiles, 
relies on the unbiased, thorough, and comprehensive data reported by 
the MIT. This data is essential for effective use of our natural 
resources and for accurate forecasting. The information for a number of 
the MIT reports is derived from proprietary information given by our 
members precisely because the government is a trusted third party.
    The United States is the world's largest user of mineral 
commodities, with processed materials of mineral origin accounting for 
over $487 billion in the economy in 2005. This is an increase of 8% in 
2004 on top of an increase of over 13% in 2003.
    Some may ask, why this legislation is necessary? In 2002, the 
Administration's FY 2003 budget proposed to eliminate the collection of 
international mineral commodity information. The attempts to eliminate 
international mineral commodity information collection have continued 
with each subsequent budget proposal. The congressional appropriations 
committees have wisely continued to reject calls to eliminate this 
critical data. It is time for Congress to step in and prevent this 
yearly battle.
    Our Nation is facing a global resources future where we are more 
dependent than ever on foreign sources of energy and minerals while at 
the same time we no longer are guaranteed to be the major recipient of 
energy and minerals from our traditional foreign suppliers. Businesses 
operate in a global economy. In 2005, imported raw and processed 
mineral materials increased in value by more than 14% to $103 billion. 
This is why the comprehensive data provided by the MIT becomes ever 
more important.
    Currently, the continued viability and availability of mineral 
commodity information is caught up in the bureaucracy and under 
budgetary assault. It is imperative that the importance of the MIT 
mission be recognized by establishing it as an independent agency of 
the Department of the Interior.
    This is the goal that my bill will accomplish. The mission of the 
newly created Mineral Commodity Information Administration will 
continue to collect, analyze, and disseminate information on the 
domestic and international supply of and demand for minerals and 
mineral materials essential to the U.S. economy and national security.
    Again, thank you Mr. Chairman for holding this hearing on such an 
important piece of legislation. I look forward to the testimony from 
all our witnesses.
                                 ______
                                 
    Mr. Gibbons. Thank you very much, Mrs. Drake. We will turn 
now to our first panel of witnesses. We would like to welcome 
them to the hearing today, as we will each of the panels, and 
they consist of Drew Meyer from the National Stone, Sand & 
Gravel Association; Mr. David Brown from the Industrial 
Minerals Association of North America. And in the absence of 
Mrs. Cubin, who wanted to be here personally to introduce Mr. 
Brown, I would submit for the record without objection a letter 
to the Chairman from Ms. Cubin introducing Mr. Brown and would 
like to say that she is very complimentary to you, Mr. Brown.
    In part, it says, ``The trona and bentonite producers in my 
home state provide important jobs and an economic driver for 
several local communities, and Mr. Brown's Association does a 
commendable job of representing this significant sector of 
Wyoming's mineral industry.'' I will submit that for the 
record. Mr. Brown, welcome, and also welcome on behalf of 
Representative Cubin from Wyoming.
    And we also have Ms. Constance Holmes, Senior Economist and 
Director of International Policy from the National Mining 
Association. Ms. Holmes, welcome very much. We will turn now to 
Mr. Meyer, and we will just go right down the row, and the 
floor is yours. Mr. Meyer, excuse me. We have a policy here 
which I have completely overstepped, which is if each of you 
will stand and raise your right hand. We do swear our witnesses 
in.
    [The prepared statement of Mrs. Cubin follows:]

               Statement of The Honorable Barbara Cubin, 
                     Representative for All Wyoming

    Mr. Chairman:
    Unfortunately, I will be unable to attend today's legislative 
hearing on the Resources Origin and Commodity Knowledge Act (ROCK Act), 
as I have the sad duty of attending a family funeral.
    In my absence, however, I would like to extend my welcome and 
thanks to David Brown from the Industrial Minerals Association of North 
America. The trona and bentonite producers in my home state provide 
important jobs and an economic driver for several local communities and 
Mr. Brown's association does a commendable job of representing this 
significant sector of Wyoming's mineral industry.
    I would also like to express my strong support for the bill under 
consideration today. Collecting and making available to America's 
producers accurate and detailed global mineral commodity information is 
paramount to maintaining a competitive playing field in a growing 
international market. I am therefore proud to be an original cosponsor 
of this important legislation and look forward to moving the bill 
forward.
                                 ______
                                 
    [Witnesses sworn.]
    Mr. Gibbons. Let the record reflect that each of the 
witnesses answered in the affirmative. I will turn now to Mr. 
Meyer. Mr. Meyer, welcome. Before you get started, we have a 
little stop and go light system here. We like to say that if 
you have your written testimony prepared, we will accept your 
written testimony in whole for the record, and you may give a 
summary of it. We would like to keep it within five minutes 
just so that we can get all of our witnesses in. So the floor 
is yours, Mr. Meyer. Welcome, and we look forward to your 
remarks.

   STATEMENT OF DREW A. MEYER, NATIONAL STONE, SAND & GRAVEL 
                          ASSOCIATION`

    Mr. Meyer. Good afternoon, Mr. Chairman and members of the 
Subcommittee. Thank you for the opportunity to appear today on 
behalf of the National Stone, Sand & Gravel Association and to 
speak in support of the Resource Origin and Commodity Knowledge 
Act introduced by Congresswoman Thelma Drake. My name is Drew 
Meyer. I am Vice President of Marketing and Transportation 
Services for Vulcan Materials Company. During my 38-year tenure 
with the company, I have spent time working in the corporate 
group and division levels both domestically and overseas.
    I have served the National Stone, Sand & Gravel Association 
and its predecessor associations in a number of leadership 
positions, most recently as Vice Chairman. I am a member of the 
Committee on Earth Resources of the National Research Council 
of the National Academies. In 2002-2003, I served on the 
Committee to review the U.S. Geological Survey's mineral 
resources program that culminated in the report entitled 
``Future Challenges for the U.S. Geological Survey, Survey's 
Mineral Resources Program,'' published by the National 
Academy's Press in 2003.
    Based near the nation's capital, NSSGA is the world's 
largest mining association by product volume. Without crushed 
stone, sand, and gravel, the nation's infrastructure could not 
be built or maintained, and the commerce and quality of life 
would be severely reduced.
    There are five important points I would like to leave you 
with today. The mining community relies upon the information 
provided by the MIT to meet the needs of our customers across 
the nation. Mineral and mineral products contributed almost one 
half trillion dollars to the U.S. economy in 2005. The USGS 
Minerals Information Team is an essential government function 
that if lost would be irreplaceable.
    The MIT information is crucial to many government entities, 
notably the Department of Defense and the Federal Reserve. The 
MIT function should be recognized, and the team should be 
elevated as an independent agency reporting directly to the 
Secretary of the Interior. For these reasons, NSSGA strongly 
supports H.R. 6080, the Resource Origin and Commodity Knowledge 
Act, and urges the Subcommittee to approve this bill.
    The United States is the largest user of mineral 
commodities in the world. In 2005, domestic users were 
importing 100 percent of 16 crucial minerals, and another 26 
minerals saw an import rate of 50 percent or higher. As demand 
for minerals and mineral products continues to grow, we can 
expect reliance on imports to increase.
    The information on foreign mineral production issued by the 
MIT helps domestic companies know where, how much, approximate 
value, demand, accessibility, and more to meet their production 
needs. Not surprisingly, the U.S. Government is also an avid 
consumer of this information. The Departments of Interior, 
Defense, and State, the CIA and the Federal Reserve use this 
information. The Federal Reserve Board uses this data to 
calculate the indexes of industrial production, capacity, and 
capacity utilization, which are among the most widely followed 
monthly indicators of the U.S. economy. Clearly, the U.S. 
Government highly values the information provided by the MIT.
    While I do not claim to have national security 
qualifications, I believe my experience provides me the 
credentials to state that the MIT function plays an important 
role in the security of the nation. First, the DOD relies on 
the MIT to develop and maintain the capability to provide 
strategic and critical material demand estimates to help manage 
the national defense stockpile. Second, the analysis of foreign 
country mineral supply and demand provides the State Department 
and our intelligence agencies with information on the direction 
of foreign governments.
    While I strongly believe the MIT is properly housed in the 
government, this does not mean the government is a good 
caretaker. It is more like an absentee landlord. The MIT 
function deserves to be enhanced by establishing it as an 
independent agency that reports directly to the Secretary of 
the Interior.
    In summary, the MIT provides valuable information to both 
the public and private sectors, information that is critical to 
the economy and national security to the United States. For 
these reasons, we urge you to support the ROCK Act. Thank you 
for the opportunity to testify today, and I would be pleased to 
answer any questions.
    [The prepared statement of Mr. Meyer follows:]

  Statement of Drew Meyer, Vice President, Marketing & Transportation 
 Services, Vulcan Materials Company, on behalf of The National Stone, 
                       Sand & Gravel Association

    Good afternoon Mr. Chairman and Members of the Subcommittee.
    Thank you for the opportunity to appear today on behalf of the 
National Stone, Sand and Gravel Association and to speak in support of 
the Resource Origin and Commodity Knowledge (ROCK) Act, introduced by 
Congresswoman Thelma Drake.
    My name is Drew Meyer. I am Vice President, Marketing & 
Transportation Services, Vulcan Materials Company. During my 38-year 
tenure with the company, I have spent time working in the corporate, 
group, and division levels, both domestically and overseas. I have 
served the National Stone, Sand & Gravel Association (NSSGA) and its 
predecessor associations in a number of leadership positions, most 
recently as Vice Chairman. I was elected to Honorary Life Membership of 
the Board of Directors in January 2004. In 2003, I was also honored 
when Aggregate Manager Magazine selected me as The AGGMAN Professional 
of the Year for 2002.
    In addition, I am a 40-year member of the Society of Mining, 
Metallurgy and Exploration (SME), where I serve on the Board of 
Directors. I was Chairman of the Construction Materials and Aggregates 
Committee; am currently a member of the Mineral Education 
Sustainability Task Force; and, serve as Vice-President of the Board of 
Trustees of the SME Foundation. I am a member of the Board of Directors 
of the Mineral Information Institute (MII) and serve as Chairman of the 
Nominating Committee. I am also a member of the Committee on Earth 
Resources of the National Research Council of The National Academies, a 
member of the American Marketing Association, and a member of the 
National Association of Business Economists. In 2002-2003, I served on 
the Committee to Review the U.S. Geological Survey's Mineral Resources 
Program that culminated in the report entitled, ``Future Challenges for 
the U.S. Geological Survey's Mineral Resources Program'' published by 
The National Academies Press in 2003. I graduated from Pennsylvania 
State University where I earned B.S. and M.S. Degrees in Mineral 
Economics.
    Based near the nation's capital, NSSGA is the world's largest 
mining association by product volume. Its member companies represent 
more than 90 percent of the crushed stone and 70 percent of the sand 
and gravel produced annually in the U.S. and approximately 117,000 
working men and women in the aggregates industry. During 2005, a total 
of about 3.2 billion tons of crushed stone, sand and gravel, valued at 
$17.4 billion, were produced and sold in the United States. Without 
these important commodities, the nation's infrastructure could not be 
built or maintained, and the commerce and quality of life would be 
severely reduced. In 30 of the 50 states, crushed stone, sand and 
gravel are the principal nonfuel minerals produced, and in another 10 
states, our product is the second most valuable nonfuel mineral 
produced. With over 11,000 operations nationwide, approximately 70 
percent of the nation's counties house an aggregates operation, many 
with multiple operations.
    There are five important points I would like to leave you with 
today.
    1.  The mining community relies upon the information provided by 
the MIT to meet the needs of our customers across the nation.
    2.  Mineral and mineral products contributed almost one-half a 
trillion dollars to the U.S. economy in 2005.
    3.  The USGS Minerals Information Team (MIT) is an essential 
government function that if lost, would be irreplaceable.
    4.  The MIT information is crucial to many government entities, 
notably the Department of Defense and the Federal Reserve.
    5.  The MIT functions should be recognized and the team should be 
elevated as an independent agency reporting directly to the Secretary 
of the Interior.
    For these reasons, NSSGA strongly supports H.R. 6080, the Resource 
Origin and Commodity Knowledge Act and urges the Subcommittee to 
approve this bill.
    Returning to my first point regarding use by the mining industry of 
the MIT data let me use my company as an example. It is difficult to 
give a concise statement about the value of the data collected and 
published by the Mineral Information Team because our use of the data 
is extensive. While Vulcan's primary focus is on the production and use 
of construction aggregates, our position as a major supplier to the 
more than $1 trillion construction industry requires us to incorporate 
information about the many other commodities used, some of which are 
competitive and others of which are complementary. The availability of 
cement, lime, gypsum, and dimension stone, to name a few are integral 
to the construction industry and the use of aggregates in construction. 
Materials flow analysis and information on recycling of aggregate 
materials and other recycled products are also valuable. Materials flow 
analysis helps us to assess the way our products contribute to 
sustainability and how to increase our contribution.
    Vulcan is actively involved in recycling construction materials in 
a number of markets. Information collected and published by the MIT on 
recycling helps us to assess the market for recycled materials and 
adjust the production of virgin aggregates to accommodate those 
products.
    The aggregates industry is highly fragmented and aggregates' high 
bulk density generally restricts shipments to local and regional 
markets. The quarterly survey conducted by the MIT (and in which Vulcan 
participates) is vital to our understanding of the differing demand 
levels in various regions of the U.S., on a nearly real-time basis, 
which allows us to more closely match supply with demand.
    And most importantly, as a mineral economist, I cannot overstate 
the importance of having long-term continuous data streams collected in 
a professional and consistent manner for helping our industry predict 
the future. It might surprise some members of the committee to learn 
that based on very conservative assumptions, the MIT predicts that more 
crushed stone will be consumed in the first 25 years of the 21st 
century than were consumed in the entire 20th century. That information 
assists us in our strategic planning and has important policy and 
environmental implications that the Congress and other public entities 
must consider.
    As for the industry as a whole, I use history as a guide. In 2004, 
the nation was facing a surge in the price of steel and cement. Many 
transportation and construction projects saw prices soar. Local 
governments, which had estimated prices in the years prior, saw project 
bids submitted at prices far above what they had budgeted for a 
specific project. Many projects were scaled back and others were simply 
dropped. Private contractors experienced the same difficult price 
increases and outcomes. There seemed to be no end in sight to the price 
increases until the Minerals Information Team released data showing the 
steel and cement shortages were not due to a supply shortage, but a 
logistical problem because ships that normally transport the products 
were busy elsewhere--notably loading or offloading in China. The MIT 
data helped to calm the markets, and we were able to weather the storm. 
While prices remained high, and still are in some cases, identifying 
the cause of the problem was important. No private sector entity could 
mimic the MIT in this respect and be able to influence the market in 
such a way.
    The United States is the largest user of mineral commodities in the 
world. As a matter of fact, processed materials of mineral origin 
accounted for over $487 billion in the U.S. economy in 2005. This was 
an increase of 8 percent over 2004 on top of an increase of almost 13 
percent in 2003. Minerals went into every manufactured product 
imaginable, from concrete and steel to hybrid vehicles and medical 
devices. Minerals and the products produced with them are the basis of 
the superior quality of life enjoyed by the nation.
    Not all minerals are mined in our backyard, however, which required 
domestic manufacturers and consumers to import approximately $103 
billion worth of minerals in 2005. I have attached two charts, appendix 
A and B, produced by the MIT that show the increasing reliance of the 
nation on imported minerals. In 1985, 29 important minerals were 
imported at various levels to meet the needs of domestic users. In 
2005, domestic users were importing 100 percent of 16 crucial minerals, 
and another 26 minerals saw an import rate of 50 percent or higher. As 
domestic manufacturers find new and innovative uses for minerals and 
mineral products, we can reasonably expect this list to grow.
    The information on foreign mineral production issued by the MIT 
helps domestic companies know where, how much, approximate value, 
demand, accessibility, and more to meet their production needs. The era 
of U.S. prominence in being served first has ended. Today companies 
operate in a global marketplace that does not necessarily give 
preference to U.S. customers, which makes the information gleaned from 
the MIT essential to companies in order to serve their customers today 
and plan for those of tomorrow.
    Not surprisingly, the U.S. government also is an avid consumer of 
this information. To complement coverage of mineral production, 
information is collected, analyzed and disseminated on individual 
country mining, environmental, investment, and other laws that affect 
the minerals industry; trade with emphasis on the interactions with the 
United States; structure and ownership within the industries; types of 
deposits; labor force; official reserves data; and other pertinent 
information. The Departments of Interior, Defense, and State, the CIA, 
Federal Reserve, and private sector companies use this information. The 
Federal Reserve Board uses this data to calculate the indexes of 
industrial production, capacity, and capacity utilization, which are 
among the most widely followed monthly indicators of the U.S. economy. 
[See attachment 3 for more information.] Clearly the U.S. government 
highly values the information provided by the MIT.
    While I do not claim to have national security qualifications, I 
believe my experience provides me the credentials to state that the MIT 
function plays an important role in the security of the nation. First, 
the DOD relies on the MIT to develop and maintain the capability to 
provide strategic and critical material supply and demand estimates to 
help manage the National Defense Stockpile. Second, the analysis of 
foreign country mineral supply and demand provides the State Department 
and our intelligence agencies with information on the direction of 
foreign governments. For example, if a newly installed government 
starts repossessing foreign-owned mines, limiting property rights, or 
enacting tough new taxes, this would raise red flags within our 
government. Conversely, if the opposite actions were taking place, it 
would also draw the attention of the government. The value of foreign 
mineral reporting transcends the simple market price of a particular 
commodity.
    It has been suggested that if the MIT function were to be 
dissolved, a private company or perhaps a university might assume the 
responsibility. Nothing could be further from the truth. The 
information for a number of the reports is derived from proprietary 
information given by NSSGA members precisely because the government is 
a trusted third party. The data Vulcan Materials Company provides the 
MIT is considered proprietary, and I would be extremely hesitant to 
recommend handing such valuable information over to another company or 
a university without ironclad guarantees of the security of that 
information. I predict that if the MIT function was dissolved, it would 
take a long time, if ever, before any company could develop personnel 
equipped to produce and publish data equal to that produced by the MIT.
    In response to the Administration's repeated attempts to curtail 
foreign mineral reporting, I fully agree with the statement included in 
the FY 2006 Interior, Environment and Related Agencies Conference 
Report (109-188):
        The managers strongly disagree with the Administration's 
        proposed reductions to the minerals assessment program and 
        believe it is irresponsible for the Administration to decrease 
        or eliminate funding for what is clearly an inherently Federal 
        responsibility.
    In a 2003 report, the National Academy noted that, ``The Minerals 
Information Team (MIT), funded by the Mineral Resources Program (MRP), 
is among the longest-running, systematic information collection, 
analysis, and dissemination functions within the federal government.'' 
It would be a serious loss if even a portion of this data collection 
were dissolved.
    While I strongly believe the MIT is properly housed in the 
government, this does not mean the government is a good caretaker; it 
is more like an absentee landlord. The MIT function deserves to be 
enhanced and transferred out of the USGS so that it reports directly to 
the Secretary of the Interior.
    Despite the importance of the information to the public and private 
sectors, the MIT is buried within the Geology Division of the USGS. 
Serious people have wondered why the MIT function, which has national 
and international customers, is housed under the Regional Executive - 
Eastern Region Geology. This is a full five levels down from the 
Director of the USGS. There are another three levels before one reaches 
the Secretary of the Interior. In comparison, the Energy Information 
Agency, which provides a similar type of information, is separated from 
the Secretary of Energy only by the Deputy Secretary.
    The placement of the MIT within the organization lends credence to 
the idea that the MIT function is not a high priority of the USGS. In 
fact, at a March 3, 2005, hearing of the House Interior Appropriations 
Subcommittee, Charles Groat, then USGS Director, seemed to say that the 
proposed cut of $2 million to the MIT could be made because the 
minerals reporting function was not a core mission of the USGS.
    In November 2005, the USGS released the Minerals Resource Program 
(MRP) Five Year Plan 2006-2010, outlining four long-term goals. The MRP 
houses the MIT. The fourth goal of the plan is aptly titled ``Ensuring 
availability of long-term data sets describing mineral production and 
consumption for national security needs.'' Despite being an identified 
goal, the plan flat funds the MIT for the entire five years. While the 
MRP itself is statically funded over the timeframe, the MIT function is 
clearly not a priority. Continued funding at the current level over 
that long a period means that the MIT will not be able to do tomorrow 
what it does today, even with an extremely low inflation rate. In 
addition, the Director's Outlook for FY 2007, signed by P. Patrick 
Leahy, acting director of the USGS, fails to mention in any capacity 
the important role the MIT serves.
    These facts lead us to believe the MIT should be removed from USGS 
to ensure the data and analysis, essential to the economy and national 
security of the nation, are given the proper priority.
    The Committee to Review the U.S. Geological Survey's Mineral 
Resources Program, on which I served, issued a report entitled, 
``Future Challenges for the U.S. Geological Survey's Mineral Resources 
Program'' and recommended a number of changes. I am pleased to note 
that the ROCK Act incorporates two of the primary recommendations into 
the legislation. First, the ROCK Act would strengthen the analysis 
capabilities of the MIT so that more comprehensive reports on material 
flows are available. In addition, the legislation establishes a 
permanent advisory committee consisting of a wide range of users of MIT 
data and analysis to ensure its activities are fully updated and 
relevant to the users. These two important provisions will enhance the 
value of the data and reports issued by the MIT and ensure ``bang for 
the buck.''
    In summary, the MIT provides valuable information to both the 
public and private sectors, information that is critical to the economy 
and national security of the United States. For these reasons we urge 
you to support the ROCK Act.
    Thank you for the opportunity to testify today. I would be pleased 
to answer any questions.
    Attachments

    [Appendices A, B and C follow:]
    [GRAPHIC] [TIFF OMITTED] 30099.010
    
    [GRAPHIC] [TIFF OMITTED] 30099.011
    
    [GRAPHIC] [TIFF OMITTED] 30099.012
    
                                 ______
                                 
    Mr. Gibbons. Thank you very much. You certainly could have 
practiced that for a number of hours and still never have been 
closer than you were. You were right to the second with that 
five minutes. That was impressive, Mr. Meyer. Thank you very 
much.
    Mr. Meyer. Thank you.
    Mr. Gibbons. I turn now to Mr. David Brown from the 
Industrial Minerals Association of North America. Mr. Brown, 
welcome. The floor is yours.

STATEMENT OF DAVID S. BROWN, INDUSTRIAL MINERALS ASSOCIATION OF 
                         NORTH AMERICA

    Mr. Brown. Thank you, Mr. Chairman. Chairman Gibbons, 
Ranking Member Grijalva, members of the Subcommittee, my name 
is David Brown, and I am President and CEO of Wyo-Ben, Inc. and 
Vice Chairman of the Bentonite Section at the Industrial 
Minerals Association, North America. I am here to express my 
strong support for H.R. 6080, the Resources Origin and 
Commodity Knowledge Act, otherwise known as the ROCK Act.
    Founded in 1951, Wyo-Ben is a leading manufacturer of 
bentonite clay-based products and remains a privately held 
company headquartered in Billings, Montana. Wyo-Ben is a small 
business, and we employ approximately 150 individuals, who 
serve a variety of functions in our operations in Montana and 
Wyoming.
    Wyoming bentonite is referred to as the clay of a thousand 
uses, and our materials are used worldwide in applications such 
as oil and gas and water well drilling, metal casting, 
environmental construction and remediation, hazardous waste 
treatment, cat litter, cosmetics, and pharmaceuticals as well 
as many other industrial and consumer-related products.
    Because of its unique characteristics, nearly 20 percent of 
the Wyoming bentonite produced is exported internationally. The 
Industrial Minerals Association, North America, IMA-NA, is a 
trade association organized to advance the interests of North 
American companies that mine or process industrial minerals. 
These minerals are used as feedstock for the manufacturing and 
agricultural industries and are used to produce such essential 
products as glass, paints and coatings, ceramics, detergents, 
and fertilizers.
    Mr. Chairman, it is likely a rare occasion when a small 
businessman comes before Congress and asks that a government 
institution be preserved and indeed requests that the status of 
that same institution be elevated. I am here to do exactly that 
and to ask that you and your colleagues support the ROCK Act. 
It is time that the supply and demand for strategic and 
critical minerals are accorded the same attention that energy 
resources receive at the Energy Information Administration.
    The legislation before you today, the ROCK Act, recognizes 
the vital importance of the work done by the Minerals 
Information Team, or MIT, and will ensure that it has the 
independence, staff, and funding to fulfill its mission.
    The U.S. is the world's largest user of mineral 
commodities. Every year, about 25,000 pounds of new nonfuel 
minerals from the earth must be provided for every person in 
the U.S. just to maintain our current standard of living.
    Domestic manufacturers and consumers of mineral products in 
2005 depended on other countries for more than 50 percent of 42 
mineral commodities critical to the U.S. economy. We believe 
the U.S. should promote an environment conducive to competition 
in the global marketplace, and collection and analysis of 
mineral commodity data on an international basis serves that 
end.
    In today's global environment, the U.S. must maintain its 
capacity to assess critical mineral resources both within and 
outside the U.S. The Subcommittee does not need to be reminded 
of the multifaceted pressures exerted on U.S. manufacturers, 
but it is worth noting that the information provided by the MIT 
enables American companies to use domestic resources 
effectively, forecast worldwide market conditions, develop 
informed strategic business plans, and respond effectively to 
short-term fluctuations and long-term trends in mineral prices, 
supplies, and demand.
    In China, for instance, information on the hundreds of 
small artesianal bentonite mines would be impossible for me to 
obtain without the reports from the MIT. The reports provide 
information on the individual country laws that affect the 
minerals industry trade, with emphasis on interactions with the 
United States structure and ownership within the mining 
industry, types of deposits, labor force, and other pertinent 
information. This valuable information helps me in 
consideration of potential foreign partnerships.
    In summary, a central, comprehensive, and unified mineral 
commodity data and information program is the best way to 
collect and distribute information on minerals critical to the 
U.S. economy and national security. I respectfully request your 
passage of H.R. 6080, the ROCK Act. Thank you for your kind 
attention. That concludes my formal statement, and I would be 
happy to answer any questions you may have for me.
    [The prepared statement of Mr. Brown follows:]

Statement of David Brown, President, Wyo-Ben, Inc., and Vice Chairman, 
    Bentonite Section Industrial Minerals Association--North America

    Chairman Gibbons, Ranking Member Grijalva, Members of the 
Subcommittee, I am David Brown, B-R-O-W-N, and I am President of Wyo-
Ben, Inc., and Vice Chairman of the Bentonite Section at the Industrial 
Minerals Association--North America. I am here to express my strong 
support, and the strong support of the member companies of the IMA-NA, 
for H.R. 6080, the Resources Origin and Commodity Knowledge Act (the 
ROCK Act).
    Founded in 1951, Wyo-Ben is a leading manufacturer of bentonite 
clay-based products and remains a privately held company headquartered 
in Billings, Montana. Wyo-Ben is a small business and we employ 
approximately 100 individuals who serve a variety of functions in 
Montana and Wyoming. Our three bentonite processing facilities are 
located in the Big Horn Basin region of North Central Wyoming and South 
Central Montana. Our employees are focused on quality and continually 
look for new and innovative solutions for customers' needs in the 
global market. Our materials are used worldwide in applications such as 
oil, gas, and water well drilling, metalcasting, environmental 
construction and remediation, hazardous waste treatment, cat litter, 
cosmetics and pharmaceuticals, as well as many other industrial and 
consumer-related products. Wyo-Ben mines its reserves from the richest 
deposit of bentonite in the world. As our name implies: We are Wyoming 
Bentonite. Wyoming bentonite is well-known as the best bentonite in the 
world.
    The Industrial Minerals Association--North America (IMA-NA) is a 
trade association organized to advance the interests of North American 
companies that mine or process industrial minerals. These minerals are 
used as feedstocks for the manufacturing and agricultural industries 
and are used to produce such essential products are glass, paints and 
coatings, ceramics, detergents and fertilizers. The IMA-NA membership 
includes producers of ball clay, bentonite, borates, calcium carbonate, 
feldspar, industrial sand, mica, soda ash (trona), sodium silicate, 
talc and wollastonite. IMA-NA's membership also includes many of the 
suppliers to the industrial minerals industry, including equipment 
manufacturers, railroads and trucking companies, and consultants. 
Industrial minerals account for approximately 14% of domestic mine 
production.
    We believe that the U.S. should continue industrial minerals 
research to ensure a stable supply of materials essential to our 
national economy and to our way of life. The U.S. is the world's 
largest user of mineral commodities. Every year about 25,000 pounds of 
new non-fuel mineral materials from the earth must be provided for 
every person in the U.S. just to maintain our current standard of 
living. The Minerals Information Team (MIT) is uniquely situated in the 
federal government to provide scientific information for objective 
resource assessments and unbiased research results on mineral 
potential, production and consumption. As a long-time beneficiary of 
the information provided by the MIT, I would like to express my 
gratitude for the fine work accomplished and exceptional products 
produced by the Team. I can think of no other single public or private 
entity that provides fundamental data of such paramount importance to 
my business.
    The value of this information to my business cannot be over-
emphasized. If I was unable to obtain this information from the 
government, I would be required to purchase the information from other 
sources at significant cost to my business, if it were available at 
all. By way of example, the cost to my company to receive a report on 
bentonite from one private research company based in the United Kingdom 
would have been $4,200 for 2005. As this report would be generated from 
the private sector it is more likely to be biased. It also is my belief 
that the information would not be as complete and accurate as that 
provided by the MIT. It should go without saying that this annual cost 
likely would be borne by hundreds of similarly situated organizations 
throughout the country. Most of these organizations are small 
businesses.
    Currently housed in the U.S. Geological Survey, the Minerals 
Information Team collects, analyzes, and disseminates information on 
the domestic and international supply of, and demand for, minerals and 
mineral materials critical to the U.S. economy and national security. 
For the last four years, the Administration's annual budget request has 
proposed eliminating MIT's funding for collection of international 
mineral commodity information. Congress wisely has rejected these 
efforts. Rather than reducing our national capacity regarding economic 
intelligence relative to minerals and mineral material resources, I 
believe it should be strengthened.
    The reductions proposed by the Administration would have terminated 
data collection and analysis for 100 mineral commodities in 180 
countries outside the U.S. The budget cuts had the potential to limit 
severely available data on global industrial minerals production and 
consumption, while continuing to make domestic data readily available 
outside the U.S. In a globally competitive marketplace, that would have 
meant that global competitors would know more about U.S. production and 
consumption than U.S. producers would know about their global 
competition.
    Mr. Chairman, it likely is a rare occasion when a small business 
man comes before Congress and asks that a government institution be 
preserved; and indeed for the status of that same institution to be 
elevated. I am here to do exactly that, and to ask that you and your 
colleagues support the ROCK Act. It is time that the supply and demand 
for strategic and critical minerals and mineral materials are accorded 
the same attention that energy resources receive at the Energy 
Information Administration. It is time to raise the status of the MIT 
organization within the federal government to a position of prominence 
that is reflective of the contributions it makes to our country. Since 
1963 my family has relied on the vital information prepared by the USGS 
Minerals Information Team. Indeed, on the shelf in my office I have 
editions of the Minerals Year Book going back to that year. It is my 
profound wish that I be allowed to continue my collection.
    The legislation before you today, the Resource Origin and Commodity 
Knowledge (ROCK) Act, recognizes the vital importance of the work done 
by the MIT and will ensure that it has the independence, staff and 
funding to fulfill its mission. The bill will remove the MIT from under 
the U.S. Geological Survey and establish it as a stand-alone agency 
within the Department of the Interior. The ROCK Act will restore the 
MIT's staff to historical levels and add additional positions to 
perform the new and expanded functions authorized in the bill by 
transferring a total of 300 professional and administrative positions 
(filled and unfilled) from USGS and DOI. Finally, the ROCK Act 
authorizes appropriations of up to $30 million annually for 10 years.
    We believe the U.S. should promote an environment conducive to 
competition in the global marketplace and collection and analysis of 
mineral commodity data on an international basis serves that end. In 
today's global environment, the U.S. must maintain its capacity to 
assess critical mineral resources both within and outside the U.S. The 
Subcommittee does not need to be reminded of the multi-faceted 
pressures exerted on U.S. manufacturers. But it is worth noting that 
the information provided by the MIT enables American companies to use 
domestic resources effectively, forecast worldwide market conditions, 
develop informed strategic business plans, and respond effectively to 
short-term fluctuations and long-term trends in mineral prices, 
supplies and demand.
    In China for instance, information on the hundreds of small 
artesian bentonite mines would be impossible for me to obtain without 
the reports from the MIT. The reports provide information on individual 
country laws that affect the minerals industry; trade with emphasis on 
the interactions with the United States; structure and ownership within 
the mining industry; types of deposits; labor force; and other 
pertinent information. This valuable information, available from no 
other source, for example, helps me in the consideration of potential 
foreign partnerships.
    Critiques could argue that the private sector is best suited to 
develop information on the occurrence, production and use of minerals 
outside the United States. Theoretically, at least, the private sector 
could perform these functions. Pragmatically, however, the collection 
and distribution of this data is an inherently governmental function. 
Consider this...
    According to the Mine Safety and Health Administration, there are 
currently 12,000 metal and nonmetal mineral mines in the United States, 
covering 106 different mineral commodities. Of these mines, all but 21 
mines employ fewer than 500 employees and, as such, are small 
businesses as defined by the Small Business Administration. I ask you, 
what is the likelihood that the owners or operators of these 12,000 
mines will pay someone to develop current occurrence, production and 
use data on non-U.S. minerals? Alternatively, imagine the conflicting 
data that likely would result if each of these mines were to pursue 
this information independently, for antitrust prohibitions probably 
would prohibit them from pursuing it collectively. Is the public 
interest best served by encouraging individual companies to develop 
generic global economic intelligence and data, or is this work best 
accomplished by the central government on behalf of the institutions 
and industry sectors that need, and benefit, from its generation? I 
submit to you that a central, comprehensive, and unified mineral 
commodity data and information program is the best way to collect and 
distribute information relevant to minerals and minerals materials 
critical to the U.S. economy and national security.
    I respectfully request your passage of H.R. 6080, the Resource 
Origin and Commodity Knowledge (ROCK) Act, which will collect and 
analyze economic intelligence on the broad array of mineral 
commodities, their occurrence, production and use.
    Thank you Chairman Gibbons, Ranking Member Grijalva, and Members of 
the Subcommittee for your kind attention. That concludes my formal 
statement. I would be pleased to answer any questions you may have for 
me.
                                 ______
                                 
    Mr. Gibbons. Thank you very much, Mr. Brown, and I am also 
very impressed with yours. You had an additional five seconds 
that you could have consumed under that clock, and I do not 
know why I am focused on the time. It is just built into my 
head I guess. You know when the airplane pushes back at 2:00, 
it is supposed to push back at 2:00. So anyway.
    We turn now to Ms. Constance Holmes, Senior Economist and 
Director of the International Policy of the National Mining 
Association. Ms. Holmes, welcome. The floor is yours. We look 
forward to your timely advice as well.

STATEMENT OF CONSTANCE D. HOLMES, SENIOR ECONOMIST AND DIRECTOR 
      OF INTERNATIONAL POLICY, NATIONAL MINING ASSOCIATION

    Ms. Holmes. Thank you very much, Mr. Chairman. I am very 
pleased to be able to represent the National Mining Association 
today and to give our strong support for the Resource Origin 
and Commodity Knowledge Act or the ROCK Act. As you probably 
know, the National Mining Association represents companies that 
produce most of the nation's coal, metals, industrial minerals, 
as well as the manufacturers of mining and mineral processing 
machinery, equipment, and supplies and other services that 
support the mining industry.
    All of our members use the data and have a significant 
interest in ensuring the widespread and public availability of 
the critical information on nonfuel minerals that the Minerals 
Information Team provides to us at the current time. We would 
like to commend you, Mr. Chairman, and all of the members of 
the Subcommittee and Congresswoman Drake especially for 
identifying this very serious problem and for taking action to 
introduce legislation that results in a sound solution.
    Metals and minerals are a very vital part of our economy, 
and the goods that we use every day depend upon them. The 
defense of our nation depends upon them, and the importance of 
the accurate, timely, and complete information about the 
commodities, their reserves, where they are produced, how much, 
where they are used, simply cannot be underestimated. It is 
important to business, yes, but it is also vital to our 
government at all levels and to the Congress as you consider 
policies with respect to access and production of these 
important commodities and other policies of importance to our 
national security.
    But as it now stands, the government's ability to provide 
the data information and analysis has certainly deteriorated 
over the past decade and with certainty will continue to 
deteriorate unless action is taken now to reverse the trend. 
Since 1995, various Administrations from both parties have 
failed to recognize the importance of maintaining a central 
database that includes information on U.S. metals and minerals 
and, just as necessary, the international information on these 
same commodities.
    During that time, our capability to collect, maintain, 
analyze, and disseminate the data has declined, and the 
timeliness of the data has declined as well. This is clearly 
not the fault of the professional and the exemplary efforts of 
the Mineral Information Team, the group within USGS now charged 
with the responsibility for collecting and maintaining the 
important data. But it is due to the constant decline in budget 
requests and ultimately appropriations in terms of real dollars 
for MIT activities.
    Although wisely Congress restores some of the budget cuts 
each year, total appropriated levels have still unfortunately 
dropped, which, as you pointed out, has forced a reduction in 
staff by over 20 percent, the loss of important expertise, and 
a reduction in the scope of data collected, its timeliness, and 
the ability to provide needed analysis of the U.S. mineral 
situation to the Congress, other government agencies, and to 
the public. Decisions are simply being made without the benefit 
of needed information, and this can only result in less than 
ideal public policy.
    MIT data is used for a number of purposes that are detailed 
in my statement, but one of the most important uses of the data 
is to document the growing dependence on imports to meet our 
everyday needs for basic materials. Increasing globalization 
and demand for minerals necessitate an understanding of both 
domestic and international factors that affect the supply and 
demand of the resources that we need and we have to compete 
for.
    But what if we did not have the data required to tell us 
how much our import dependency is increasing or how vulnerable 
we are to supplies from possibly less than stable or less than 
friendly governments or why prices are increasing and supplies 
in the U.S. are decreasing due to demand from other countries?
    MIT's supply and consumption data is the only source of 
mineral information that provides the necessary understanding 
for both the domestic and international factors that could 
adversely affect almost every segment of the U.S. economy. It 
allows us to answer questions and to devise solutions when 
problems do occur.
    Creating an independent agency within the Department of 
Interior will give a needed priority to the continuity of this 
effort. Mr. Chairman and members of the Subcommittee, we cannot 
encourage you to pass this legislation fast enough, because 
this new effort and new information effort within the 
Department of Interior is greatly needed and is needed now. 
Thank you very much. I would be pleased to answer questions.
    [The prepared statement of Ms. Holmes follows:]

      Statement of Connie Holmes, Senior Economist and Director, 
           International Policy, National Mining Association

    My name is Connie Holmes, senior economist and director of 
international policy at the National Mining Association (NMA). NMA 
appreciates the opportunity to testify before the House Resources 
Committee in strong support of H.R. 6080, the Resources Origin and 
Commodity Knowledge or ROCK Act.
    NMA is the principal representative of the producers of most of the 
nation's coal, metals, industrial and agricultural minerals; the 
manufacturers of mining and mineral processing machinery, equipment and 
supplies; and the engineering and consulting firms, financial 
institutions and other firms that serve the mining industry. Our 
association and our members have a significant interest in ensuring the 
widespread and public availability of critical information on mining 
and mineral commodities, the objective of the ROCK Act.
    NMA commends the committee for your leadership in bringing a 
serious issue to light and for taking action to legislate a sound 
solution. The importance of accurate and timely information about 
metals and minerals cannot be underestimated. Metals and minerals and 
the products that they make possible form the basis of our economy and 
ensure our national security. Just as business requires sound, 
accurate, and timely data and analysis to use as the basis for making 
decisions, so too does the Congress, federal, state and local 
governments and the public require such data in order to form public 
minerals policies.
    Unfortunately, over the last ten years various administrations have 
failed to recognize the importance of maintaining a central data base 
that includes information on U.S. metals and minerals as well as 
international information on these same commodities. During this time, 
our capability to collect, maintain, analyze and disseminate this data 
has declined sharply. The timeliness of the data that remains has 
declined as well. Clearly, this is not the fault of the professional 
and exemplary efforts of the Minerals Information Team (MIT)--the group 
within the United States Geological Survey (USGS) charged with the 
collecting, maintaining and reporting minerals and metals data. The MIT 
collects and disseminates data on virtually every commercially 
important non-fuel mineral commodity produced worldwide.
    Rather, it is due to the constant decline in appropriations for MIT 
activities that has resulted in a reduction in staff and expertise. 
This in turn has forced a reduction in the scope of the data collected, 
its timeliness and the ability to provide needed analysis of the U.S. 
minerals situation to Congress, other government agencies and the 
public. The United States has gone from possessing one of the best and 
most relied upon collection of metals and mineral information to 
holding a collection more akin to those found in second tier mineral 
producing countries. This downgrade has caused serious ramifications 
for U.S. business and most particularly to the U.S. government, 
including our defense sector. Both short- and long-term decisions are 
now being made without the benefit of needed information.
    The public and private sectors rely on the MIT information to 
better understand the use of mineral materials and their ultimate 
disposition in the economy; to use national resources efficiently; and 
to forecast future supply and demand for minerals both in the United 
States and globally. Information provided by MIT is used in the 
analysis of policies, in formulating plans to deal with shortages and 
interruptions in metal and mineral supplies and in the development of 
strategies to maintain America's competitive position in the global 
economy.
    MIT data is used by:
    <bullet>  National security agencies to develop an understanding of 
strategic and critical minerals and to understand the effect that 
changes in natural resource markets can have on the economic and 
political stability of developing countries.
    <bullet>  The Department of Defense to help manage the National 
Defense Stockpile.
    <bullet>  The Federal Reserve Board for critical economic 
forecasting.
    <bullet>  The Department of Commerce's Bureau of Industry and 
Security to analyze and resolve trade disputes.
    And, of course, Congress uses the data and analyses stemming from 
it as the basis to determine public policy.
    There are critical non-governmental uses for this data as well.
    <bullet>  Manufacturers need the data, because as primary users of 
minerals, they need to know production trends and other information to 
project price, availability and other factors.
    <bullet>  Financial institutions use the data to make loan 
decisions based on availability of minerals.
    <bullet>  For market analysts and academicians the data is the only 
source for the majority of the U.S. statistical data on mining and 
mineral commodities.
    <bullet>  The mining industry uses the data to make sound 
marketing, finance and land-use decisions.
    The United States has an abundance of natural resources including 
the metals and minerals that are the foundation of our industrial 
economy. Only the combined countries of the former Soviet Union and 
Australia ranked higher than the U.S. in a recent study of the global 
distribution of 15 metals with important uses. However, our nation is 
becoming more dependent upon foreign sources to meet our metal and 
minerals requirements, even for minerals with adequate domestic 
resources. America now depends on imports from other countries for 100 
percent of 17 mineral commodities and for more than 50 percent of 42 
mineral commodities.
    This increased import dependency is not in the national interest. 
Increased import dependency causes a multitude of negative 
consequences, including aggravation of the U.S. balance of payments, 
unpredictable price fluctuations and vulnerability to possible supply 
disruptions due to political or military instability. It is 
irresponsible to ignore the vast mineral resources we have within our 
nation's boundaries. But, what if our nation did not have the data 
required to tell us how our import dependency is increasing? Or how 
vulnerable we are to supplies from less than stable governments? Or why 
prices are increasing and supplies decreasing due to demand from other 
countries? Without the MIT and the data it collects we could not answer 
those questions or determine potential market problems in advance.
    The Bureau of Land Management's (BLM) recent statement on ``Energy 
and Non-energy Minerals'' acknowledges the government's responsibility 
to decrease our nation's dependency on overseas sources of minerals. In 
particular, the policy reaffirms the importance of the Domestic 
Minerals Program Extension Act of 1953, which recognizes:
        ``...the continued dependence on overseas sources of supply for 
        strategic or critical minerals and metals during periods of 
        threatening world conflict or of political instability within 
        those nations controlling the sources of supply of such 
        materials gravely endangers the present and future economy and 
        security of the United States. It is therefore declared to be 
        the policy of the Congress that each department and agency of 
        the Federal Government charged with responsibilities concerning 
        the discovery, development, production, and acquisition of 
        strategic or critical minerals and metals shall undertake to 
        decrease further and to eliminate where possible the dependency 
        of the United States on overseas sources of supply of each such 
        material.''
    This act is still relevant to our country's increasing 
vulnerability to access strategic and critical minerals, and the 
potential adverse impact of that vulnerability on national and homeland 
security. This law and our government's responsibility to decrease 
dependency on foreign minerals cannot be implemented without the 
minerals information provided by MIT.
    Our vulnerability to over-reliance on foreign supplies is 
exacerbated by competition from the surging economies of countries such 
as China and India. As these countries continue to evolve and emerge 
into the global economy, their consumption rates for mineral resources 
are ever-increasing as they build their economies using the same 
mineral resources that we used to build and maintain our economy. As a 
result, there exists a much more competitive market for global mineral 
resources and some mineral resources that we need in our daily lives 
are no longer as readily available to the U.S.
    Increasing globalization and demand for minerals necessitate an 
understanding of the international factors that affect the supply and 
demand of the resources the U.S. is competing for, the demand for which 
is increasing both domestically and internationally. For example, 
China's consumption of copper has more than quadrupled in the last 
decade and China's consumption outstripped that of the U.S. in 2002. 
MIT's supply and consumption data is the only source of minerals 
information that provides the necessary understanding of international 
factors that could adversely affect the U.S. Creating an independent 
agency will ensure that such data continue to be collected and help 
insulate the MIT from repeated budget cuts.
    As recently as last winter the Office of Management and Budget 
included the Minerals Resource Program on a list of programs for 
reduction or elimination. Administration budget requests consistently 
recommend eliminating our ability to collect and analyze international 
minerals data, at a time when the minerals industry is becoming more 
global and America is becoming more dependent on imports for more 
commodities. Even as you are holding this hearing, the Minerals 
Information Team is considering further staff reductions and taking 
other actions to meet another reduced budget in FY2007. Congress cannot 
act too soon to stem this tide by acting expeditiously to pass H.R. 
6080.
    The ROCK Act will ensure the wide availability of minerals 
information by making the United States Geological Survey's (USGS) 
Minerals Information Team (MIT) an independent agency within the 
Department of the Interior.
    NMA appreciates the opportunity to express its support for H.R. 
6080 and looks forward to the establishment of an independent Minerals 
Information Agency within DOI. I would be happy to answer any 
questions.
                                 ______
                                 
    Mr. Gibbons. Thank you very much, Ms. Holmes. Like your 
colleagues up there, you did very well in putting your summary 
within the time required. We are now at that point in our 
Subcommittee hearing where we turn to the members of the 
committee for questioning, and we will limit it to five 
minutes. If we get to the end and find that there are still 
more questions, we will of course have an extra round, but I 
would like to yield my time to Ms. Thelma Drake, who is the 
author of the legislation, for the first round of questioning. 
Ms. Drake.
    Ms. Drake. Thank you, Mr. Chairman, and thank all of you 
for your testimony today, and I am going to start with Mr. 
Meyer. Mr. Meyer, you noted that you are giving proprietary 
data to a trusted third party. Do you believe that any 
contractor or any private party could properly protect that 
data, and do you believe the protections that are in the bill 
are sufficient to protect data?
    Mr. Meyer. We do give the information, and as a public 
company, we have always had a policy of publishing most of the 
data that we give to the U.S. Bureau of Mines. We have total 
confidence in the current MIT. We have total confidence in 
their ability to keep the information confidential.
    Many of the other companies in our industry--and there are 
nearly 11,000 of them--are private companies, and those private 
companies are not willing to give their information as freely 
as we do, and they are all concerned--or not all, but many of 
them are concerned about the ability to keep that information 
confidential.
    I feel very certain that many of those who currently give 
their information to the MIT, the U.S. Geological Survey, would 
not if it was to a private, outside group, because I think they 
would be concerned that us big guys--and our company is the 
largest in the aggregate industry--would somehow get access to 
that information. But the current MIT has proven over the years 
that they can and will keep the information confidential.
    Ms. Drake. Thank you. And, Mr. Brown, I see that you have 
two books standing up there. Could you tell us what they are?
    Mr. Brown. Well, they are actually the 1963 version of 
Volume 3 and 4 of the Minerals Yearbook, and this happens to be 
the international book, and this is the domestic book, and I 
brought those because we have a collection that sits on our 
bookshelf in our company, and we have used this information 
since 1963 to help us in identifying what is happening both 
domestically and internationally in our industry, in the 
bentonite industry. And we use that information to assess 
whether there are opportunities for us.
    And in the international arena today, that is very 
important because we do not know what is happening in China, 
for example, or Russia without information like this. There is 
an emerging bentonite industry in those countries, and as a 
dominant player in that industry, we would like to be 
positioned and have the knowledge to take advantages of joint 
venture opportunities, for example, that may exist. So that 
information has been very important to us over the years.
    Ms. Drake. Thank you. And, Mrs. Holmes, you mentioned that 
MIT is considering further staff reductions and taking other 
actions to meet the reduced budget for 2007. Can you expand on 
that, and should we be talking to appropriators to sort of put 
this on hold while we work on this bill?
    Ms. Holmes. To answer your last question first, yes, I 
believe you should be talking to appropriators to make certain 
that the staff and resources of the MIT team as they exist now 
are maintained into next year. As you know, the budget request 
this year was much lower. We have confidence that it will be 
restored, but MIT management must of course take steps to plan 
for a lower budget, and we are told that they are doing this.
    This is of great concern to all of our members and all of 
the users of the information. And I might add we all do use 
this information very heavily. We also have a collection of 
these Minerals Yearbooks that we consult on an extremely 
regular basis.
    Ms. Drake. Thank you. And, Mr. Chairman, I see my time is 
up. I will yield back.
    Mr. Gibbons. Very well. Thank you, Ms. Drake. We will turn 
now to Mr. Grijalva for any questions he may have.
    Mr. Grijalva. Thank you, Mr. Chairman. I guess this is for 
all the witnesses and following up on Mrs. Holmes' testimony. 
We know that the United States Bureau of Mines was dissolved in 
1995, and I think in listening to testimony, we also heard the 
Federal Government continues to impose annual budget cuts that 
I think negatively affect USGS' mineral information and 
commodity assessment capabilities.
    So it is a general question for all three of you. How can 
Congress and this Administration ensure proper funding, 
necessary funding, for the Minerals Commodity Information 
Administration? And I think as a corollary to that question as 
well: Do you believe that the Mineral Commodity Information 
Administration will be equally sufficient as the United States 
Bureau of Mines that was abolished in 1995? Two-part question, 
and I guess we can begin with Ms. Holmes if that is 
appropriate.
    Ms. Holmes. Well, we do not think that the Administration, 
the proposed Administration, would replace or replicate if you 
will the Bureau of Mines, which had many, many more functions 
than data collection and analysis and dissemination.
    We do think, however, that the proposed Administration with 
the Department of Interior will give a priority to the data 
collection efforts of the Mineral Information Team and will 
allow them to be independent in their work, will allow them to 
certainly maintain the confidentiality of data, which is 
extraordinarily important to all of our companies, and will 
allow them to provide both the domestic and the international 
materials and data to both government and private industry as 
they need it.
    We think that through a separate line item, if you will, a 
separate area in the budget, that the Congress certainly will 
be able to assure that that funding level is maintained, just 
as you have assured that the funding levels for the Energy 
Information Administration have been maintained.
    Mr. Grijalva. Then that line item would be similar. Well, 
the same example is if the Bureau of Mines had that separate, 
distinct line item.
    Ms. Holmes. Yes. It would be separate, distinct, and it 
would show that it is a priority.
    Mr. Grijalva. I am trying to keep to five minutes.
    Mr. Brown. Well, I do not know if I am the best person to 
answer the question of the funding and whether it would be the 
same or continue, but I can say the quality of the information 
I believe would be----
    Mr. Grijalva. Given the discussion that the funding at this 
point--let me categorize it for you--is not sufficient and in 
fact there have been reductions, when I brought up the question 
of proper and necessary funding, that is what I was directing 
that question at.
    Mr. Brown. And let me answer that if I can by dealing with 
the quality of the information, because the quality of the 
information is good information, and if we were to use the 
alternatives, it would not be as good as information. So is the 
funding adequate today? I do not know if it is adequate or not, 
but I can tell you that we are using the information today that 
is being generated. We want the program to continue so that we 
have access to this information that is vital on the 
international markets.
    Mr. Grijalva. Thank you.
    Mr. Meyer. From the number of interactions I have had with 
the MIT, I think that it is clear that the funding has not been 
adequate. They have been, I think, very professional and 
excellent stewards of the money that they have been given, but 
it has not been enough to allow them to modernize some of their 
data collection activities, and I think it is extremely 
important that we make certain that that happens, and this 
agency will, I think, help that to happen.
    Mr. Grijalva. I have no further questions, Mr. Chairman.
    Mr. Gibbons. Thank you, Mr. Grijalva. Let me just take a 
few minutes here of my time and ask some very simple questions. 
First of all, Mr. Meyer, many times when we pass a bill in 
Congress here that goes, for example, in the transportation 
issue, the construction of a highway project or something of 
that nature, we do not oftentimes think about how it is that 
those people we charge with the responsibility of constructing 
those highways, building those roads and bridges, get the 
information necessary to pull together the cost of where they 
will get the materials, et cetera.
    The information from MIT here obviously goes to assisting 
and aiding in the ability of I would say not only decision 
makers and policymakers but contractors who look at sources of 
minerals, where they are going to get it for highways. Just in 
a typical highway project, how much of your product, sand and 
gravel, goes into a typical mile of highway construction?
    Mr. Meyer. It certainly depends upon the type of highway 
constructed, but in the neighborhood of 40 to 50,000 tons per 
mile is a fairly good estimate of the amount of material that 
goes into highway construction. A smaller project where all 
they are doing is resurfacing it could be a lot less, on the 
order of 1,000 or 1,500. But construction requires a tremendous 
amount of aggregate.
    Mr. Gibbons. So, in that 40 or 50,000 tons that go into a 
typical mile, the farther you get from the source of the 
supply, then you have to calculate the added cost into 
construction of that. So it is very important to know where and 
how much and the quality of the sand and gravel and other 
materials, and this information would be very helpful I am 
sure, which is part of our economy as we look down the road.
    Mr. Meyer. Yes.
    Mr. Gibbons. Mr. Brown, you indicated that approximately 
25,000 pounds of material, minerals, metals are used each year 
by every person. Is that a figure which is widely accepted or 
recognized as the mineral production requirement for this 
country, or is this a national or an international figure that 
has been accepted as well?
    Mr. Brown. Well, I do not think that necessarily is an 
international figure. It is a national figure. It is unknown 
for the most part. I do not think people understand what they 
use every day and the minerals that are involved in that.
    Mr. Gibbons. Could you give us some examples?
    Mr. Brown. Sure. If this was glass, it would have soda ash 
in it. Metal in the table could very well have used bentonite 
for the casting. The oil that is produced for any of the things 
that might be in the room used bentonite for drilling that oil 
and gas well, and the list goes on. I said bentonite is the 
clay of a thousand uses, and it truly is. It is used in many, 
many things that we use every day.
    Mr. Gibbons. And I am sure that in that 20-plus thousands 
pounds per individual per year that that includes the coal that 
is mined to produce electricity, much of which is consumed back 
here even in this city from a coal-fired power plant just down 
the road.
    Mr. Brown. It sure is.
    Mr. Meyer. Many are not aware, but 20,000 pounds of that is 
aggregate.
    Mr. Gibbons. To drive on on their highways?
    Mr. Meyer. Yes, sir.
    Mr. Gibbons. Very good. Let me turn to Ms. Holmes, and you 
have pointed out that there is and has been a decline in the 
ability of this country's ability to collect, maintain, 
analyze, and disseminate data recently. Do you see that 
leveling out or changing or even increasing without the passage 
of this legislation?
    Ms. Holmes. Absolutely we do not. This legislation is 
necessary to advance and to enhance the data collection ability 
of the Mineral Information Team. Without the priority that is 
given by a piece of legislation such as this and making 
collection a priority, the trend can only continue to go 
downward, and it can only continue to be much more difficult 
for those very good people at MIT to serve the needs of the 
Congress, the rest of the government, and of the public in 
providing us with that accurate data.
    Mr. Gibbons. Now there is some parallels already drawn 
earlier when we talk about the Department of Energy and the 
Energy Information Administration and their contribution to 
being able to analyze and point to economic benefit of having 
information available to us. This would be the equivalent or 
something similar to that only on the mineral side, is that 
correct?
    Ms. Holmes. That is our understanding, yes, and as 
representatives of coal producers, we are very familiar with 
the Energy Information Administration and the excellent job 
that they do in collecting data, analyzing data and 
forecasting, and it is my understanding that the Mineral 
Information Administration would also be able to use the data 
to forecast our needs as well, which would be an additional 
service to the government and the Congress.
    Mr. Gibbons. And in reading this legislation, do you find 
therein the intent or the attempt I should say to reauthorize 
the Bureau of Mines? Is that what this legislation is about?
    Ms. Holmes. No, we do not believe that it would reauthorize 
the Bureau of Mines. As I mentioned, the Bureau of Mines had a 
much broader mandate than just data collection. They were 
involved in research activities and any number of other 
activities other than data collection and analysis and 
dissemination. So this is not a recreation of the Bureau of 
Mines. It is a creation of a new and much more modern effort to 
maintain our nation's important mineral databases.
    Mr. Gibbons. I have gone over my time a little bit, but, 
Ms. Drake, do you have any additional questions that you would 
like to ask?
    Ms. Drake. Mr. Chairman, I just have one more I wanted to 
ask about. Mr. Meyer, I also serve on the House Armed Services 
Committee, and we received a report from the Under Secretary of 
Defense committing Department of Defense to conducting an in-
depth study of the national defense stockpile, and the results 
of that study I am sure are going to propose a new 
configuration for the stockpile. So, if MIT were no longer 
gathering the international information, and with these latest 
budget proposals, who would DOD turn to to get that information 
for us?
    Mr. Meyer. I do not know. I do not think there is any 
other. There is certainly no other organized group to do it. 
They would probably have to get it through various 
intelligence-gathering activities or through the embassies. I 
do not know.
    Ms. Drake. Yes. All right.
    Mr. Meyer. There is no place I know of that it is collected 
otherwise.
    Ms. Drake. Thank you, Mr. Meyer.
    Mr. Chairman, I will yield back.
    Mr. Gibbons. Thank you. Let me follow it up with just one 
question that either probably Ms. Holmes or Mr. Meyer might be 
better addressed at answering, and that would be a simple one. 
From your experience over the course of the years that you have 
dealt with the USGS or dealt with the information that has come 
from them, why do you believe there is such a low rating within 
those government agencies of the mineral information that we 
see today? It seems that it is the bottom of the totem pole. 
Why do you think that it is that way if it plays such an 
important part in the economy and decisionmaking both within 
the government and outside of the government?
    Mr. Meyer. Connie, you want to try it first?
    Ms. Holmes. It is taken for granted, and I do not think 
that many of the people within the government that actually use 
the data really recognize its importance even though we do. The 
members of this committee do, but by and large, the general 
public simply does not.
    Mr. Meyer. I think they are all subject to a certain 
competition for funding, and there are things that are a whole 
lot more sexy that the USGS is involved in: earthquake 
forecasting, volcanos, things like that that the public looks 
at and has an interest in, and so if they are not getting 
enough money and something has got to give, it is information. 
It is an easy thing to kind of not fund completely.
    At least that is the way I feel, and I think that is what 
happens. Those people who use it really need it, and there are 
a good many people out there who only need it when they need it 
and then in the meantime, they do not think about it, and so 
they do not put any pressure on anybody to collect it on a 
regular basis.
    Mr. Gibbons. I guess my analogy would be if we did not have 
a telephone book sitting at our house by the telephone and you 
never think about it, it is always there, and you rarely use it 
anymore, but when you do, it is nice to have that information. 
So yes, I would agree with all of your assessments on why it is 
important as well.
    So, if there are no further questions, let me also indicate 
that we will probably have written questions from members of 
the committee who may not be here today submitted to you. We 
would submit those to you in writing and would ask that you do 
return them within 10 days of receipt for answering those 
questions to us. And with that, I will excuse our first panel. 
Thank you very much for your service, your time, and your 
testimony before this committee. It is very important to us.
    And we will call up our second panel, which consists of Mr. 
Michael Kaas from Arlington, Virginia; Mr. David Kanagy, 
Executive Director, Society for Mining, Metallurgy and 
Exploration, Inc.; Mr. Milt Copulos, President, National 
Defense Council Foundation. And before you do get seated, we go 
through this ritual again of swearing each and every one of you 
in.
    [Witnesses sworn.]
    Mr. Gibbons. Let the record reflect that each of the 
witnesses answered in the affirmative. The same admonition 
about the traffic light. Green is to go for five minutes. Stop 
is when you reach five minutes. If you go over, if you get too 
drastic in your exuberance to talk, well, I will ask you to sum 
it up at some point in there. But please know and understand 
that your full written and complete testimony will be entered 
into the record. We will turn now to Mr. Kaas. Thank you and 
welcome.

         STATEMENT OF MICHAEL KAAS, ARLINGTON, VIRGINIA

    Mr. Kaas. Good afternoon, Mr. Chairman and members of the 
Subcommittee. My name is Mike Kaas. I am a mining engineer. In 
2004, I retired after 28 years with the Federal Government and 
12 years in the private sector. Twenty years of my government 
service was at the U.S. Bureau of Mines, where I held several 
senior management positions in minerals information and 
analysis and in the environmental technology research program.
    I appreciate the opportunity to appear before you today. I 
commend the committee for recognizing the necessity of a 
comprehensive and unbiased minerals commodity information 
program.
    As has been said earlier, from 1925 until it closed in 
1996, the Bureau of Mines had a worldwide reputation for 
excellence in minerals data collection, analysis, and 
dissemination. Since 1996, the U.S. Geological Survey Mineral 
Information Team has faithfully tried to continue the Bureau's 
legacy in the collection of mineral commodity data and in 
providing that data to the public and other government 
agencies.
    That job has not always been an easy one. Not all of the 
mineral information capabilities of the Bureau of Mines were 
transferred to the U.S. Geological Survey in the first place. 
Information-sharing with the technical experts in the Bureau's 
research programs was also lost. At the Survey, the team's 
budget has been constrained, and staffing levels have been 
reduced.
    In H.R. 6080 and with the creation of the Mineral Commodity 
Information Administration and with the incorporation of the 
Minerals Information Team, we will elevate the stature of 
mineral commodity information. Nonfuel mineral materials issues 
will likewise be elevated and should play a more prominent 
policy role.
    The financial footing of the Mineral Information Team will 
also be strengthened. The ROCK Act could also provide the means 
to make the new program more global and forward-looking in 
three ways, and these ways are not always completely explicitly 
spelled out in the current language of the Act, but let me just 
highlight each of these quickly.
    First, gathering foreign minerals information should be 
enhanced. More than ever before, nonfuel mineral materials are 
a truly global business. Rather than being downsized, staffing 
of international minerals specialists should be increased. 
Second, the engineering and economic analysis capabilities in 
the new program should be strengthened with increased skills 
and staff. This will permit the organization to perform more 
comprehensive, forward-looking assessments of mineral supply.
    Let me mention just one example. Availability curves from 
these analyses can show the total worldwide quantity of 
recoverable material as a function of the estimated production 
costs of each deposit and of course with other financial 
parameters in the analysis. They can predict when existing 
mines will be exhausted and when deposits should come online, 
new deposits. In the last 10 years, access to information on 
the deposits in the former Communist bloc countries has 
improved. This will increase the value of new supply analyses.
    Finally, this new Minerals Administration should build a 
capability to track worldwide technology developments. Whether 
they burst on the scene or are the result of continued 
incremental improvements, advanced technologies permit us to 
discover new deposits, to recover lower grade mineral 
resources, to produce valuable materials from waste streams, 
and to develop innovative new uses for minerals. To anticipate 
and analyze the impacts of new advancements, active contact 
should be made with universities, research institutes, and 
companies engaged in the development of new mineral materials 
technology. Thank you very much for listening to my remarks, 
and I will be glad to take any questions.
    [The prepared statement of Mr. Kaas follows:]

         Statement of L. Michael Kaas, Mining Engineer, Retired

    Mr. Chairman and Members of the Committee:
    I am Mr. L. Michael Kaas, a mining engineer and a Professional 
Engineer licensed in the State of Minnesota. In 2004 I retired after 28 
years in the Federal government and 12 years in the private sector. 
Twenty years of my government service was at the U.S. Bureau of Mines 
where I held several senior management positions in the minerals 
information and analysis program and in the environmental technology 
research program.
    After the Bureau of Mines closed in 1996, I was instrumental in 
organizing the U.S. Bureau of Mines Alumni Association. It was a 
completely web-based community of past Bureau employees, many of whom 
found themselves job hunting and utilized the website, 
www.bureauofmines.com, to network with one another. The website served 
that purpose well and was actively maintained for several years.
    I appreciate the opportunity to appear before you today. I commend 
the Committee for recognizing the necessity of maintaining an 
independent and authoritative non-fuel mineral commodity information 
capability in the Federal government. As the world's largest consumer 
of minerals, America's economy and standard of living depend on the 
availability of mineral materials. The domestic mineral materials 
industries mine, process, and ship nearly $500 billion of non-fuel 
mineral commodities annually. While the Nation has been blessed with 
abundant reserves of many minerals, we are dependent on imports for 50 
percent or more of over 40 important non-fuel mineral materials. As the 
world's appetite for minerals grows, especially in countries like China 
and India, global competition for mineral supplies will surely 
increase. Industry and government will require comprehensive and 
unbiased non-fuel mineral materials information with which to base 
future plans and policies.
    From 1925 until it closed in 1996, the Bureau of Mines had a 
worldwide reputation for excellence in minerals information collection, 
analysis, and dissemination. Since 1996, the U.S. Geological Survey, 
Mineral Information Team has continued the Bureau's legacy in the 
collection of mineral commodity data and in providing that data to the 
public and other government agencies. That job has not always been an 
easy one. First of all, not all of the minerals information functions 
of the Bureau of Mines were transferred to the Geological Survey. Some 
important information and analysis capabilities were eliminated 
altogether. The association and information sharing with the technical 
experts in the mining, metallurgical, and environmental technology 
research programs was also lost when they too were terminated. Since 
the transfer to the Geological Survey, Minerals Information Team 
budgets have been constrained, staffing levels have been reduced, and 
the International Minerals Section has been a perennial target for 
elimination.
    Not all the news has been negative. The Minerals Information Team 
seized upon the power of the Internet and used it to provide more 
efficient and effective distribution of its publications. Materials 
flow studies by the Minerals and Materials Analysis Section have 
provided a more complete picture of the life cycle of several important 
mineral commodities, the role of recycling in materials supply, and the 
generation and management of waste products.
    H.R. 6080 and the creation of the Mineral Commodity Information 
Administration (MCIA) with the incorporation of the Minerals 
Information Team will strengthen the financial footing of the current 
program. By elevating the stature of the mineral commodity information 
function through this new Administration, non-fuel minerals issues will 
likewise be elevated and should play a more prominent policy role. The 
establishment of a Mineral Commodity Advisory Committee will provide 
valuable outside input to the new Administrator. The Act properly 
affirms the need for government to respect the confidentiality of 
minerals data. Protection of confidential data was a key factor in the 
success of the Bureau of Mines' information sharing partnerships with 
producers and consumers. It continues to be so at the Geological 
Survey.
    H.R. 6080 and the new Mineral Commodity Information Administration 
could also provide the means to strengthen and enhance the current 
Minerals Information Team's program in three important ways:
    First, the new program should take a more global and forward-
looking view. More than ever before, non-fuel mineral materials 
production and trade is a truly global business. It is appropriate that 
mineral commodity statistical surveys should continue to provide in-
depth domestic production, consumption, and trade data. However, the 
gathering of foreign minerals information should be enhanced. Rather 
than being downsized, staffing of the International Minerals Section 
should be increased from its current level. This will help ensure that 
an accurate and thorough understanding is maintained of the mineral 
materials economies and trends in all major foreign mineral producing 
or consuming countries. The two recommendations that follow also 
support the need for a more global, forward looking perspective.
    Second, the engineering and economic analysis capabilities in the 
new program should be strengthened. This will permit the organization 
to provide comprehensive, forward-looking assessments of minerals 
supply.
    Minerals availability analyses are an example of an output of this 
type of enhanced capability. Availability curves depict the relative 
economic viabilities of significant individual deposits. These curves 
can show the estimated total quantity of recoverable material as a 
function of the total production cost of each deposit and other 
financial parameters. Based on the production rates at each deposit, 
curves can show when existing mines will be exhausted and when new 
deposits should come on-line. In the last 10 years, access to 
information on deposits in the former Communist Block countries has 
improved. This additional information will increase the value of new 
supply analyses.
    In a simplified fashion, here is how this analytical process would 
work:
    (1)  The Mineral Commodity Advisory Committee would select the 
commodities for which analyses would be conducted. The selections would 
be based on the level of concern about future supply shortfalls.
    (2)  Existing mines and undeveloped deposits of the essential 
commodities worldwide would be tracked and basic data would be 
collected.
    (3)  Engineering and cost analyses, essentially mini-feasibility 
analyses, would be conducted for each deposit. Capital and operating 
costs would be estimated. By using consistent cost estimation and 
financial analysis methodologies for these analyses, comparable data on 
each deposit would be produced regardless of its location.
    (4)  Supply analyses would then be conducted using the engineering 
and cost data for selected groups of deposits. Availability curves 
would be produced for a variety of economic conditions.
    The analytical methods I have just described were included in the 
Bureau of Mines Minerals Availability Program that was terminated in 
1996. They are well documented in many publications. The software tools 
and other methods developed by the Bureau could provide a jump-start 
for the process at the new Mineral Commodity Information 
Administration.
    Finally, this new Administration should build a capability to track 
worldwide mineral materials technology developments. Mineral production 
and utilization as we know it would not be possible without the 
enabling technologies. Whether they burst upon the scene or are the 
result of continued incremental improvements, advanced technologies 
permit us to discover new deposits and economically recover lower-grade 
mineral resources. The domestic taconite/iron, copper, and gold 
industries all utilize advanced technologies to stay competitive. 
Advanced technologies also facilitate the recovery of valuable 
materials from waste streams and allow the development of innovative 
new uses for minerals. To fully anticipate and analyze the impacts of 
new technologies on future minerals production and consumption, active 
contacts should be maintained with universities, research institutes, 
and companies engaged in the development of new mineral materials 
technology.
    I encourage the Committee to consider additional language for H.R. 
6080 to more explicitly address these opportunities for further 
strengthening of our Nation's mineral commodity information and 
analysis capabilities.
    Thank you very much for listening to my remarks. I will be glad to 
take any questions.
                                 ______
                                 
    Ms. Drake. Thank you, Mr. Kaas. Next I would like to 
recognize Mr. Kanagy.

 STATEMENT OF DAVID L. KANAGY, EXECUTIVE DIRECTOR, SOCIETY FOR 
            MINING METALLURGY, AND EXPLORATION, INC.

    Mr. Kanagy. Thank you. Thank you to everyone for allowing 
us to speak. I am Dave Kanagy, Executive Director of SME, the 
largest professional membership organization in the world with 
interest in mineral reporting. I am here today on behalf of SME 
and its 12,000 members.
    The introduction of legislation to recognize the USGS 
Mineral Information Team by making it an independent agency 
within the Department of Interior strongly conveys the 
important message that minerals are vital to the United States' 
economy and its well-being.
    Mineral commodity prices are generally dictated by the 
world market such that knowledge of domestic production must be 
put into the context of global supply and demand. MIT is the 
only agency that does this. Its data are used by a wide variety 
of Federal Government agencies, such as the Department of 
Interior, Commerce, State, Defense, Central Intelligence 
Agency, and by state agencies concerned about their state and 
local economies and by the companies that supply production and 
reserve data to the MIT.
    These data help determine the vulnerability of the United 
States with regards to limitations of supply from certain 
countries, its domestic and international dependency on a 
limited number of mines or regions for specific commodities, 
and its measure of independence with respect to mineral 
resources. They also indicate how the changes in demand from 
other countries will impact prices in the U.S., the adequacy of 
our national defense stockpile, and the ability of substitutes 
should shortages occur.
    In addition to providing data on production and resources, 
the MIT monitors the implementation of environmental health and 
safety and other laws related to mining and mineral processing. 
It also provides the basic information required to elevate the 
sustainability of mineral resource production at national, 
regional, and global levels.
    Although many look upon mining, agriculture, and other 
basic industries such as steel and materials development as not 
necessary, these industries and the products they develop are 
the backbone of the U.S. economy. If you look at the electronic 
and information age we are living in, you note that all of the 
new technologies require copper, platinum, iron ore, and other 
commodities to ensure that our electronic communication can 
take place with reliability.
    Prior to the elimination of the U.S. Bureau of Mines, 
Bureau personnel reported on U.S. and global production and 
reserves, while mineral resource experts in the USGS estimate 
it uncovered resources that could possibly become reserves in 
the future. Bureau of Mines personnel largely formed the MIT, 
and they are complemented by mineral resource experts at the 
USGS. This legislation ensures that vital mineral commodity 
information continues to be available.
    Currently, the MIT collects and disseminates data on 
virtually every commercially important nonfuel mineral 
commodity produced worldwide. Since 2002, the commodities 
markets have experienced steady price increases. Base and 
precious metals such as copper, zinc, molybdenum, nickel, and 
gold have all experienced London Metal Exchange price increases 
of more than 100 percent and, in some cases, more than 1,000 
percent.
    These are long-term price increases that appear to be more 
cyclical highs as a new bottom on prices seems to be holding on 
nearly all commodities. Much of this can be attributed to the 
rapid industrialization of China and India. The impacts of 
these surging Asian economies on the U.S. domestic minerals 
supply need to be recorded and documented to ensure that the 
U.S. interests are well-protected.
    Without these data being put into our proper global context 
by the MIT, the U.S. will be vulnerable to potential 
disruptions in supply that could slow down our economy or make 
it difficult to produce hardware needed for our defense. If an 
independent MIT is established to provide necessary data, the 
market will be able to take care of changes in pricing due to 
supply and demand with little intervention from the government.
    With the formation of the Energy Information 
Administration, EIA, clearly the Federal Government understands 
the importance of the worldwide demand on energy production. 
The establishment of the Minerals Commodity Information Agency 
would also demonstrate that the Federal Government understands 
the importance of minerals to our society.
    Accurate and timely data is critical to making good 
decisions. Without a credible public data source, the advantage 
immediately rests with the commodity developer, commodity 
supplier, middleman, broker, promoter, or commodities dealer 
who has data. If the policymakers and businesses must make an 
informed business decision or develop a sound policy, they will 
be at the mercy of the person or group that possesses the 
necessary information.
    There are 81 nonfuel mineral commodities presently tracked 
by the MIT. U.S. companies relied on imports for more than 50 
percent of those commodities, and of those commodities, the 
U.S. is 100 percent dependent on 16 minerals being imported 
every year. The reality of that probably will not change as 
there are no known reserves of those commodities within the 
United States.
    We urge Congress to pass the Resource Origin and Commodity 
Act of 2006 as soon as possible so that MIT may independently 
produce accurate and timely reports for government agencies. 
SME would be pleased to provide this committee with any further 
details or information. Thank you.
    [The prepared statement of Mr. Kanagy follows:]

           Statement of David L. Kanagy, Executive Director, 
         Society for Mining, Metallurgy, and Exploration, Inc.

    Thank you, Mr. Chairman, distinguished Members of Congress, and 
guests. I am David Kanagy, Executive Director of SME--the Society for 
Mining, Metallurgy, and Exploration--the largest professional 
membership organization in the world with interests in mineral 
reporting. I'm here today on behalf of SME and its 12,000 professional 
members.
    The introduction of legislation to recognize the USGS Minerals 
Information Team (or MIT) by making it an independent agency within the 
Department of Interior strongly conveys the important message that 
minerals are vital to the United States economy and its well being. 
Mineral commodity prices are generally dictated by the world market, 
such that knowledge of domestic production must be put into the context 
of global supply and demand. MIT is the only agency that does this. Its 
data are used by a wide variety of federal government agencies, such as 
the Departments of Interior, Commerce, State, Defense, Central 
Intelligence Agency and by state agencies concerned about their state 
and local economies, and by the companies that supply production and 
reserve data to the MIT.
    These data help determine the vulnerability of the United States 
with regard to limitations of supply from certain countries; its 
domestic and international dependency on a limited number of mines or 
regions for specific commodities, and its measure of independence with 
respect to mineral resources. They also indicate how the changes in 
demand from other countries will impact prices in the US; the adequacy 
of our National Defense Stockpile, and the availability of substitutes 
should shortages occur. In addition to providing data on production and 
resources, the MIT monitors the implementation of environmental, health 
and safety, and other laws related to mining and mineral processing. It 
also provides the basic information required to evaluate the 
sustainability of mineral-resource production at national, regional, 
and global levels.
    Although many look upon mining, agriculture and other basic 
industries, such as steel and materials development, as not necessary, 
these industries and the products they develop are the backbone of the 
U.S. economy. If you look at the electronic and information age we are 
living in, you'll note that all of the new technologies require copper, 
platinum, iron ore, and other commodities to ensure that our electronic 
communication can take place with reliability.
    Prior to the elimination of the U.S. Bureau of the Mines, Bureau 
personnel reported on U.S. and global production and reserves, while 
mineral-resource experts in the USGS estimated undiscovered resources 
that could possibly become reserves in the future. Bureau of Mines 
personnel largely formed the MIT, and they are complemented by mineral 
resource experts at the USGS. This legislation ensures that vital 
mineral-commodity information continues to be available.
    Currently, the MIT collects and disseminates data on virtually 
every commercially important non-fuel mineral commodity produced 
worldwide. Since 2002, the commodities markets have experienced steady 
price increases. Base and precious metals such as copper, zinc, 
molybdenum, nickel, and gold have all experienced London Metal Exchange 
price increases of more than 100%--and in some cases more than 1000%. 
These are long-term price increases that appear to be more than 
cyclical highs, as a new bottom on prices seems to be holding on nearly 
all commodities. Much of this can be attributed to the rapid 
industrialization of China and India. The impacts of these surging 
Asian economies on the U.S. domestic minerals supply need to be 
recorded and documented to ensure that the U.S. interest are well 
protected. Without these data being put into proper global context by 
the MIT, the U.S. will be vulnerable to potential disruptions in supply 
that could slow down our economy or make it difficult to produce 
hardware needed for defense. If an independent MIT is established to 
provide necessary data, the market will be able to take care of changes 
in pricing due to supply and demand with little intervention from the 
government.
    It is estimated that the United States economy consumed over $487 
billion in minerals in 2005, which was an 8% increase over 2004 and an 
increase of over 13% in 2003. In addition, the U.S. imported $103 
billion in mineral commodities to support our domestic economy. With 
U.S. consumers demanding this volume of minerals, it is critical that 
MIT collect, analyze and disseminate information on the domestic and 
international supply of and demand for minerals and mineral materials.
    With the formation of the Energy Information Administration (EIA), 
clearly the Federal Government understands the importance of worldwide 
data on energy production. The establishment of the Minerals Commodity 
Information Agency would also demonstrate that the Federal Government 
understands the importance of minerals to our society.
    Accurate and timely data is critical to making good decisions. 
Without a credible public data source, the advantage immediately rests 
with the commodity developer, commodity supplier, middleman broker/
promoter, or commodities dealer who has ``data.'' If the policymakers 
and businesses must make an informed business decision or develop a 
sound policy, they will be at the mercy of the person/group that 
possesses the necessary information.
    There are 81 nonfuel mineral commodities presently tracked by the 
MIT. U.S. companies relied on imports for more than 50% of those 
commodities. And of those commodities, the U.S. is 100% dependent on 16 
minerals being imported every year--a reality that probably won't 
change, as there are no known reserves of those commodities within the 
United States.
Conclusion
    We urge Congress to pass the Resource Origin and Commodity 
Knowledge Act of 2006 as soon as possible so that the MIT may 
independently produce accurate and timely reports for governmental 
agencies to use in planning for the future and for industry as it 
supplies our national needs for mineral resources. SME would be pleased 
to provide this committee with any further details or information to 
ensure a full understanding of the mineral needs and use within the 
U.S. and the world economies.
                                 ______
                                 
    Ms. Drake. Thank you, Mr. Kanagy. And next, Mr. Copulos.

             STATEMENT OF MILT COPULOS, PRESIDENT, 
              NATIONAL DEFENSE COUNCIL FOUNDATION

    Mr. Copulos. Congressman Drake, I would be remiss if I did 
not take a moment to commend you and your colleagues for doing 
this. Having been on the firing lines with this data, I can 
tell you it is much, much long overdue. In order to not be 
repetitive, I am going to summarize and just really focus on 
two key points.
    First, take into consideration the following: A jet engine 
such as we use in our fighter aircraft uses 2.7 tons of 
titanium, of which 63 percent is imported; 2.6 tons of nickel, 
of which 54 percent is imported; 1,600 pounds of chromium, of 
which 69 percent is imported; 1,000 pounds of cobalt, of which 
78 percent is imported; 800 pounds of aluminum, of which 47 
percent is imported; 3 pounds of tantalum, of which 91 percent 
is imported; and 200 pounds of columbium, of which 100 percent 
is imported.
    In fact, the situation is beginning to show up in the 
bottom line. Last April, Major General James Pillsbury, 
Commander of the U.S. Army's Aviation and Missile Command, 
complained that metal shortages are causing long production 
lead times for critical parts, adding as much as $4.2 million a 
day to certain contracts.
    In the future, this is only going to get worse because the 
things such as pram rare earth [phonetic] we are 100 percent 
dependent on are absolutely critical to the production of 
things like our Future Force Warrior program equipment, which 
is what made our people so effective in Iraq and will make them 
so effective in other warfare.
    In addition, I have a personal stake in this. In 1986, I 
was asked by the Reagan White House to come in as a special 
consultant to draft the national critical materials report, and 
at that time, I discovered two things, one of which was that 
the minerals commodities specialists at the U.S. Bureau of 
Mines were absolutely world-class scientists, the finest people 
I have ever met and worked with.
    The other is they were being stifled and underutilized even 
then because there were people in some quarters of government 
who took a bookkeeper's approach to our need for information on 
minerals. They knew the cost of everything and the value of 
nothing. That really has not changed.
    One other illustration is during that same period, I 
performed some classified research for the Central Intelligence 
Agency. I can say now without getting into many details and 
specifics that had we had the kind of information you are 
talking about now, we would have had a three to five-year 
advance warning of the collapse of the Soviet Union. That is 
how important this information is. I cannot overstress it.
    The question is: Why have we not gotten there? Why cannot 
we do this? Well, the fact is we can do it, and you are showing 
us the way. During that same period, I did a lot of work with 
the Department of Energy, in particular the Energy Information 
Administration. To this day, I rely heavily on their documents. 
They provide exactly the kind of information that we need on 
minerals.
    The fundamental problem I think is that we are unaware of 
our use of minerals in this country. You pull up to a pump. You 
buy a gallon of gasoline. You know what it costs. You do not 
pull up to the pump and buy a pound of copper and realize it 
has gone up 500 percent in the last five years or that your 
country cannot function without it.
    For example, a hybrid automobile, Toyota Prius, uses twice 
as much copper as a sedan would, and a sedan made as a hybrid 
would use four times as much copper as a conventional sedan. 
All these things are interconnected. They are part of a whole, 
and one reason we do not understand that is we do not have the 
information available that we should that would be able to let 
us inform the public about this.
    Also, the international competition is growing, and given 
the key roles that many of these minerals do play in national 
defense, it is absolutely essential that we have the type of 
information on mineral production outside this country on a 
regular, timely, daily basis if need be that we do not have 
today.
    If you look back to the period during Hurricane Katrina, 
the Energy Information Administration was publishing daily 
updates on the energy situation in the Gulf in terms of 
production, rate count, electricity, pipeline flows.
    The people at the Mineral Information Team have the 
technical capability to do this. They have the knowledge as 
individuals. What they lack is an infrastructure and a system 
which is inclined to do it. Frankly, we have a 19th century 
attitude toward a 21st century market, and it is something we 
can ill afford, and we can only continue to allow it to persist 
at our peril.
    [The prepared statement of Mr. Copulos follows:]

              Statement of Milton R. Copulos, President, 
                  National Defense Council Foundation

    My name is Milton R. Copulos and I am President of the National 
Defense Council Foundation. I want to thank the Committee for the 
opportunity to share my views today. I especially want to commend 
Chairman Gibbons for his leadership in calling attention to our 
nation's dangerous import dependence on nonfuel minerals and to the 
urgent need for a source of accurate timely information on both 
domestic and international mineral commodity markets.
    Although most Americans are now aware of our dangerous dependence 
on imported oil, most have little conception of our equally dangerous 
dependence on imported nonfuel minerals. Indeed, while many 
commentators express concern at our 65.5% oil import dependence, few, 
if any raise an alarm over the fact that we rely entirely on imports 
for 16 critical mineral commodities, and for 42 for more than half of 
our needs. The implications of this dependence for our economy and our 
ability to defend ourselves cannot be overstated.
    For example, we are 100% dependent on imports for our supplies of 
Yttrium, which is essential to the manufacture of key defense products 
such as aircraft components, radar and microwave transmitters. We are 
also totally dependent on imports for our supplies of rare earths which 
are also essential to the manufacture of radars as well as computer 
monitors and permanent magnets. Or consider for a moment, our import 
dependence on some of the key minerals required to manufacture a 
military jet engine.
    One Jet Engine, such as those used in our fighter aircraft contains 
2.7 tons of Titanium of which 63% would be imported; 2.6 tons of Nickel 
of which 54% would be imported; 1,600 pounds of Chromium of which 69% 
would be imported; 1,000 pounds of Cobalt of which 78% would be 
imported; 800 pounds of Aluminum; of which 47% would come from imports; 
200 pounds of Columbium of which 100% would come from overseas and 3 
pounds of Tantalum of which 91% would be imported.
    I should also note that the danger our dependence poses is not some 
theoretical concept. Last April, Major General James Pillsbury, 
commander of the U.S. Army's Aviation and Missile Command complained 
that metals shortages are causing long production lead times for 
critical parts and adding as much as $4.2 million per day in extra 
costs to some contracts.
    In the future, as we increasingly integrate high-tech components 
into our arsenal as, for example, in the Future Force Warrior program, 
the need for specialty minerals and materials can only grow and that 
increased need will bring with it an accompanying need for current, 
timely information.
    Yet, we have failed miserably in ensuring that such information 
will be available. Instead, we have continued to employ a 19th century 
view of information requirements to address 21st century problems.
    At the heart of the issue is the lack of an accessible, credible 
source of timely information.
    This deficiency, however, is not a recent development.
    The need to have accurate information on the nation's mineral 
resources has been recognized from the earliest days of the Republic. 
Indeed, one of the important assignments given to Lewis and Clark on 
their journey of discovery was to catalog as much information on 
mineral deposits as possible. By 1879, when the U.S. Geological Survey 
was created, among its first actions was to establish the Mining 
Statistics Division. In 1925, the responsibility for gathering mining 
data was transferred to the U.S. Bureau of Mines, where it remained 
until 1996 when it was returned to the U.S. Geological Survey.
    In addition to the general need for data on mines and minerals, the 
advent of the 20th century created another imperative to collect this 
information. During the First World War, it became evident that 
minerals had taken on a new importance in relation to national defense. 
Until that time, the nation had given little thought to the adequacy of 
its mineral resource base. But the war changed that. As a result, in 
1921, the U.S. War Department m the ``Harbord List,'' of 28 minerals 
that had been in short supply during the conflict.
    Still, little was done until 1939 when conflict erupted in Europe 
and the potential threat to the United States became clear. In that 
year, the Navy Department was given $3.8 million to purchase reserves 
of key materials, and another $70 million was allocated by Congress for 
the creation of a strategic stockpile.
    The next year, President Roosevelt ordered the Reconstruction 
Finance Corporation to begin making significant purchases of war 
materials. The RFC's Metals Reserve Corporation was assigned the 
specific task of acquiring strategic metals.
    Despite these measures, there were shortages of key commodities 
during World War II occasionally leading to bizarre consequences. For 
example when copper supplies proved insufficient to meet both military 
munitions needs and the need for enormous amounts of wiring by the 
Manhattan Project, the wire was made from silver instead. In fact, 
copper supplies were so critical that the War Department released 2,800 
copper miners from active duty in the Armed Forces in 1942 so that they 
could return to the mines.
    The lessons of the two World Wars, however, were not taken to 
heart.
    By 1949, the U.S. had become heavily dependent on foreign sources 
for a number of key commodities including manganese and chromium. 
Unfortunately our source for these imports was the Soviet Union. As a 
result, when the Berlin Crisis arose, the Soviets were quick to cut off 
our supplies, and it was only by virtue of the development of 
alternative suppliers that we were able to fend off the predatory move.
    Concern over the Soviet action and the nation's demonstrated 
vulnerability to import disruption led to creation of the Paley 
Commission in 1952 with a mandate to analyze our critical materials 
needs. Little action was taken, however, to act on the Commission's 
recommendations. Moreover, this would be the last analysis of our 
strategic and critical materials needs for two decades.
    Again, in 1973, in the wake of the OPEC embargo and a renewed 
interest in natural resource imports, the USGS published an overall 
assessment of the nation's mineral resources. It would be another 
decade before the subject was revisited.
    In 1986, I had the privilege of acting as a consultant to the White 
House to draft the National Critical Materials Report, the first 
analysis of this vital issue in over a decade. During this period, I 
also conducted classified research on the issue for the Central 
Intelligence Agency. In the course of this research I was stunned to 
discover how poorly structured our information systems were in this 
area.
    As I attempted to obtain timely reliable information to conduct my 
analysis, it quickly became evident that I would have to rely on 
private sources.
    I should take a moment to note here that it also became evident 
that the lack or data was not the result of a shortage of competent, 
qualified personnel. The mineral commodity specialists I worked with at 
the time were of the highest caliber, each a world class specialist in 
their area of expertise. Moreover, they were dedicated to providing the 
best possible analysis and information. Indeed, many expressed to me 
their frustration over not being more effectively utilized.
    Rather, at the heart of the problem was a fundamental lack of 
understanding of the need for timely information and a head in the sand 
attitude that viewed mineral commodities purely in economic terms with 
no appreciation of their strategic dimension.
    It was, in essence, a bookkeepers view which saw the cost of 
everything and the value of nothing.
    Worse, this problem has persisted to the present. Despite the fact 
that we are in a shifting and volatile global threat environment, and 
in a period of rapidly evolving technology that is having a significant 
effect on the types and volumes of minerals and metals that have 
strategic importance there is no attempt at real time data collection 
and dissemination. We are in effect flying blind.
    Yet, this need not be the case.
    I would contrast our dismal failure to provide adequate information 
resources in regard to nonfuel minerals with the information resources 
we provide related to energy.
    The Energy Information Administration provides exactly the type of 
data we desperately need about nonfuel minerals. It routinely publishes 
information on a daily, weekly, monthly and annual basis on a wide 
variety of important factors affecting energy markets, production, use 
and research. During the Gulf hurricanes, it provided daily updates on 
energy production and transportation within that region. All of this, 
mind you, was available to any citizen instantly over the Internet.
    So, it can be done, and I would suggest, it must be done.
    Our failure to anticipate the energy supply disruptions of the 
1970s and 1980s arose in part from a fundamental lack of information. 
While experts might have been aware of the evolving problem, there was 
no place a citizen, reporter, or for that matter public official could 
go to obtain current, accurate information. The creation of the 
Department of Energy in 1977 was soon followed with the establishment 
of EIA. In the nearly three decades since, EIA has created the 
capability to meet the energy information needs of all sectors of 
society. There is no reason why we cannot do the same in regard to 
minerals.
    It should also be understood that providing information is a role 
that all thoughtful people, regardless of ideology, can agree is 
appropriate for government. In the case of minerals, it is even more so 
since such a large proportion of the nation's mineral resources are 
found on federal lands. Further, the creation of such an entity need 
not entail undue expense. Individuals with the requisite expertise are 
already on the government's payroll, and are often underutilized. With 
the advent of the Internet and personal computers, it is easy to make 
publications readily available to the general public, the media and 
government officials at minimal cost as well.
    In the final analysis, the question is not whether we should create 
such an entity, but rather why we have not already done so.
                                 ______
                                 
    Ms. Drake. [Presiding.] Thank you. I am going to start with 
you, Mr. Kaas. How do you think that the national mineral 
policies have faired since the Bureau of Mines was shut down?
    Mr. Kaas. Well, I think from some of the earlier 
discussions, it is evident that people frequently take minerals 
for granted, whether it is the man on the street or higher up 
in the chain of command. The creation of mineral policy does 
require a strong database on production, consumption of 
minerals, and it also requires that you know where mineral 
reserves are going to come from in the future.
    It is very nice to think about what is out there we have 
not discovered yet, but you really cannot produce anything from 
a mineral deposit until you find it, and when you find it, you 
have to make sure you have the technology available to enable 
that to become utilized.
    So, as we look to the future policy needs of the country, 
we are going to be dependent on a strong information base on 
what we are doing in terms of producing and consuming minerals 
now. We are also going to need to be looking at where are the 
locations around the planet where mineral deposits have been 
discovered that we can produce either with current technology 
or with technology that is in the laboratories today.
    Ms. Drake. And, Mr. Kaas, you mentioned expanding the 
responsibilities of the Mineral Commodity Information 
Administration. Would you be willing to help us and provide 
draft language for the committee?
    Mr. Kaas. Sure, I would be glad to do that.
    Ms. Drake. Thank you. And, Mr. Kanagy, if we do not 
establish the Mineral Commodity Information Administration, 
what do you think will happen to the Minerals Information Team 
at USGS?
    Mr. Kanagy. Well, I suspect they will continue to function 
in some smaller way at USGS, but the data that these people 
provide is critical for all of the issues that everybody has 
mentioned here today.
    Ms. Drake. Well, you made an interesting point about people 
just do not look at these industries as necessary, and it makes 
me a little concerned about making sure we convince our Members 
of Congress how important this issue is, so we might be looking 
to your help for that.
    Mr. Kanagy. Well, here is an idea for you. When you go to 
the grocery store, the FDA has got the fat content, the sodium 
content, et cetera, on each of the food products that we buy in 
the grocery stores. Maybe we ought to have a law where you have 
to list all of the resources contents on automobiles and 
clothing and all the other things that we manufacture in this 
country so that people will realize what minerals go into each 
of our products that we consume in our country today.
    Ms. Drake. Well, Mr. Copulos, you did that with your 
opening, because I do not think anyone ever thinks about the 
huge amount of minerals that are used and what minerals and 
mined products are needed for our national defense. I think we 
need to have a copy of that from you--we do--and give that to 
people as we talk about the bill and how they are supplied to 
us, that they are not from the U.S. I think that is an eye-
opener. But how often do you think that the U.S. should have a 
national critical materials report?
    Mr. Copulos. First of all, I think it should be annual. We 
had a huge fight with OMB over this because the fact is that if 
anyone has got a bookkeeper's mentality, it is OMB, and at the 
end, they kept trying to cut back. They wanted to classify 90 
percent of it because they did not want the information on the 
mineral commodities published because they wanted to sell the 
stockpiles.
    And in fact, it got to the point where they were sending me 
around to meet with the various people, the mineral commodities 
experts we did work with, and the one in Washington said, oh, 
you are the psychologist, because I was going in and reassuring 
them of their work. And they began to believe there was a 
psychologist being sent around to help them through the 
terrible battering they were getting from OMB.
    So we have had an attitude toward the mineral commodity 
data side for some reason that has been not just antiquated. It 
has been almost hostile, and I do not know why that is, but I 
know we can ill afford it.
    Ms. Drake. And do you think this function of an annual 
report should be in the Mineral Commodity Information 
Administration? Is that the right place for it?
    Mr. Copulos. I do for this reason. I think you need a 
Mineral Commodity Administration so that you get unbiased 
information, and you need the report to come out of somewhere 
that is not subject to the political considerations that 
sometimes happen. I went over for three months to draft the 
report. It took 18 months to get out, and 90 percent of that 
time was purely political infighting.
    Ms. Drake. Well, I would like to thank all of you for your 
testimony. I find it very interesting that we have had six 
panelists today and you have all agreed. Could we have you back 
more often? But members of the Subcommittee may have additional 
questions for the witnesses, and we would like to ask you to 
respond to these in writing. The hearing record will be held 
open for 10 days for these responses.
    So, if there is no further business before the 
Subcommittee, the Chairman again thanks the members of the 
Subcommittee and our witnesses, and the Subcommittee stands 
adjourned.
    [Whereupon, at 3:15 p.m., the Subcommittee was adjourned.]

    [Additional material submitted for the record follows:]
    [A letter submitted for the record by the American Concrete 
Pavement Association, American Concrete Pipe Association, 
Michigan Concrete Paving Association, National Concrete Masonry 
Association, National Ready Mixed Concrete Association, and 
Portland Cement Association follows:]
[GRAPHIC] [TIFF OMITTED] 30099.004

    [A letter submitted for the record by Lee T. Billingsley, 
President, American Association of Petroleum Geologists, 
follows:]
[GRAPHIC] [TIFF OMITTED] 30099.005

    [A letter submitted for the record by Mark G. Ellis, 
President, Industrial Minerals Association--North America, 
follows:]
[GRAPHIC] [TIFF OMITTED] 30099.006

[GRAPHIC] [TIFF OMITTED] 30099.007

    [A statement submitted for the record by John D. Morgan, 
EM, Ph.D., follows:]

     Statement submitted for the record by John D. Morgan, EM, PhD

    Modern industrial civilizations require adequate and continuing 
supplies of basic mineral materials: foods and timber, which in turn 
are dependant on mineral materials. Resource-poor Imperial Japan 
recognized this truth in the 1890's, culminating in its efforts to 
create the Greater East Asia Co.-Prosperity Sphere by military force. 
So also did Germany in its ``Drang Nach Osten'' (Push to the East) in 
the 1930's. Even Czarist Russia, with huge lands, pushed into eastern 
Asia in the 1880's, to increase its supplies of essential materials. 
More recently the Communist Government of China, with its 1.3 billion 
people is using money and contracts to tie up long-term-supplies of 
essential materials worldwide.
    In 1879 the U.S. Geological Survey was created to make detailed 
investigations of mineral resources, and those efforts were augmented 
in 1910 by the creation of the U.S. Bureau of Mines to look more 
closely at mineral requirements and supplies. World War I and II 
clearly demonstrated the need for adequate Federal Government 
information, plus intelligent information-backed programs to ensure 
expanded supplies and adequate stockpiles. Government contracting and 
controls, including priorities, allocations, and price controls were 
based on good information, as were draft decisions exempting critical 
workers in the mineral industry and agriculture. Supplies from 
accessible foreign countries also entered into critical supply/demand 
analyses, as did the requirements of friendly allied nations.
    In wartime, and in periods of international uncertainty such as 
today, it is critical that the U.S. Government have personnel and 
organizations that are competent to handle information that is 
classified as ``company proprietary'' and government ``restricted'', 
``confidential'', ``secret'', ``top secret'', ``atomic energy'', etc. 
During the ``Cold War'' the U.S. Bureau of Mines had a staff of 
technically trained persons who were cleared to collect and utilize 
such information. But information, in itself, is sometimes inadequate 
without informed cross-checking efforts. Consequently, the USBM had 
experts (GS14 or 15) in more than 30 mineral-producing states, where 
they were in touch with state agencies and industrial facilities. The 
USBM also had commodity specialists who covered specific areas 
(bauxite, alumina, aluminum, lead and zinc, for example) who visited 
production and utilization sites at home and abroad. USBM also had 
country specialists who knew foreign languages, visited foreign 
sources, and often were foreign born. It had fluent staffers in 
Russian, Serbian, French, German, Japanese, Arabic, Farsi, Hindi, and 
many others. Then, for example, if information on copper were needed, 
the state specialist on Arizona, the country specialist in Chile, and 
that commodity specialist on copper, should be in close agreement. 
Merely because some computer print-outs are on white paper and with 
clear printing is no certification of accuracy. Experts must know Who, 
What, Why, When, Where and How.
    The unit that was transferred from the USBM to the USGS in 1996 had 
that capability. But in recent years, retirement, deaths, and funding 
cuts have seriously depleted that reservoir of talent. The USBM's 
mineral industry component of the National Defense Executive Reserve 
was eliminated more than a decade ago, and the Nation's Defense 
Industrial Base is rapidly shrinking. Present National Security needs 
require prompt and intelligent action to restore lost capabilities.
    Dr. Morgan was a Major, Combat Engineers in World War II, and from 
1948 to 1995 a Senior Government Official of the Federal Government in 
agencies dealing with national security matters.
                                 ______
                                 
    [A letter submitted for the record by Kraig R. Naasz, 
President & CEO, National Mining Association, follows:]
[GRAPHIC] [TIFF OMITTED] 30099.008

    [A letter submitted for the record by Laura Skaer, 
Executive Director, Northwest Mining Association, follows:]
[GRAPHIC] [TIFF OMITTED] 30099.009

    [A letter submitted for the record by Shelley Stewart, Jr., 
Senior Vice President, Opertional Excellence and Chief 
Procurement Officer, Tyco International (US) Inc., follows:]

[GRAPHIC] [TIFF OMITTED] 30099.001

    [A letter submitted for the record by Jennifer Joy Wilson, 
President & CEO, National Stone, Sand & Gravel Association, 
follows:]
[GRAPHIC] [TIFF OMITTED] 30099.002

[GRAPHIC] [TIFF OMITTED] 30099.003

                                 <all>

</pre></body></html>
